<html>
<title> - DEFENSE COOPERATION: USE OF EMERGENCY AUTHORITIES UNDER THE ARMS EXPORT CONTROL ACT</title>
<body><pre>[Senate Hearing 116-199]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-199
 
            DEFENSE COOPERATION: USE OF EMERGENCY AUTHORITIES 
                    UNDER THE ARMS EXPORT CONTROL ACT

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 10, 2019
                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
               U.S. GOVERNMENT PUBLISHING OFFICE 
 40-504 PDF             WASHINGTON : 2020                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1


Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3


Cooper, Hon. R. Clarke, Assistant Secretary, Political-Military 
  Affairs, U.S. Department of State, Washington, DC..............     4
    Prepared statement...........................................     6


              Additional Material Submitted for the Record

Responses of R. Clarke Cooper to Questions Submitted by Senator 
  James E. Risch.................................................    34


Responses of R. Clarke Cooper to Questions Submitted by Senator 
  Robert Menendez................................................    34


Responses of R. Clarke Cooper to Questions Submitted by Senator 
  Todd Young.....................................................    43


Responses of R. Clarke Cooper to Questions Submitted by Senator 
  Edward J. Markey...............................................    45


                             (iii)        


DEFENSE COOPERATION: USE OF EMERGENCY AUTHORITIES UNDER THE ARMS EXPORT 
                              CONTROL ACT

                              ----------                              


                        WEDNESDAY, JULY 10, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:19 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Gardner, Romney, Cruz, 
Menendez, Cardin, Shaheen, Coons, Murphy, Kaine, and Markey.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Thank you all for being here today. And today, we are going 
to discuss the recent emergency declaration regarding U.S. arms 
sales.
    To start, we should recognize and acknowledge that the law 
contemplates and, indeed, requires a partnership between the 
executive branch and the legislative branch regarding arms 
sales. This committee plays an important role to conduct 
rigorous oversight of the issue. At the same time, the law does 
grant the President authority to conduct sales without 
congressional approval in times of emergency. We will be 
focusing on that issue. This hearing will focus on these rules 
and authorities. We must consider the context for this latest 
declaration, namely the active threats and attacks from Iran 
and its proxies and our partners' capabilities to defend 
against those threats.
    The Arms Export Control Act grants the President authority 
to declare an emergency concerning specific arms sales and 
avoid the standard process of congressional notification. Such 
presidential authority dates back more than 40 years to lessons 
learned from the October 1973 war in the Middle East. 
Presidents of both parties have used emergency authorities 
five--on five previous occasions. In each case, they address 
specific threats to U.S. allies and did not alter the standing 
process of congressional review nor have a meaningful impact on 
Congress's authority over time. I expect this latest 
declaration will continue that pattern and deserves review in 
that expectation.
    As with one of the previous emergency declarations, this 
declaration came in response to threats and attacks from the 
Iranian regime. Since mid-May, Iran and its proxies have struck 
commercial ships, civilian airports, and desalination plants 
critical to the civilian population. Additionally, they shot 
down multiple U.S. unmanned aircraft. Over the weekend, 
Iranian-backed Houthi forces in Yemen unveiled even newer 
models of ballistic missiles and unmanned aerial vehicles 
capable of striking deeper into Saudi Arabia. Iran's threats 
and actions toward the U.S. and our allies have been clear: We 
must respond to such threats, protect our interests, and 
support our allies as they defend themselves. Neither this 
President nor Congress nor the American people seek war with 
Iran. And I commend the President for his restraint in the face 
of numerous provocations.
    I was in the room as the President considered the--one of 
the most recent provocations, and sought advice regarding that. 
Anyone--anyone who interprets the President's reasonable 
forbearance is making a grave mistake, that is a--ripe for 
miscalculation and it should not be mistaken. Attacking 
America, its interests, or our partners will lead to a strong 
defensive response. Emergency declarations are useful, not just 
for the tangible military capabilities they transfer to allies 
and partners, but are equally important for the messages they 
convey.
    These particular sales come in the context of, and are 
colored by, larger challenges with our Saudi and Emirate 
partners, including the war in Yemen, the murder of Jamal 
Khashoggi, and other human rights issues. To address these 
challenges, I introduced the Saudi Arabia Diplomatic Review Act 
and sought broad input from all quarters, on a bipartisan 
basis, to produce legislation that will move us much more in 
the right direction. I want to thank all parties, including my 
friends on the other side of the aisle, who have been very 
helpful in trying to craft legislation that will get us to 
where we want to be. I have been impressed how carefully people 
have weighed this issue, and how impressed I have been with the 
attempt to reach legislation that balances the various aspects 
of this challenge.
    This legislation calls for a comprehensive review of United 
States-Saudi relations. As we conduct this review, however, we 
must not--we must discourage Iran aggression, and must not 
leave Saudi Arabia vulnerable. Our partners desperately need 
the capabilities in these sales contemplated by other U.S. 
training and advising initiatives to improve their ability to 
minimize collateral damage and deter aggression. We are here 
today because of the continuing threats by Iran. As we move 
forward, I urge us all to seek measured solutions to these 
difficult challenges and avoid inadvertently strengthening our 
adversaries or damaging our partners and allies. I really 
believe this committee has done that and, hopefully, we will 
continue to do that.
    I thank our witnesses for joining us today, and look 
forward to hearing their perspectives on these issues.
    With that, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for holding this 
hearing today to examine the appropriate role of congressional 
oversight on arms sales.
    It is important that any President and any administration, 
and this one in particular, respect Congress as a coequal 
branch of government and execute our laws in good faith.
    Now, despite your pledge during your confirmation hearing 
to do just that, Mr. Cooper, and your commitment to be 
transparent and forthcoming with this committee, since you 
began your tenure, the Department has shown only disdain for 
Congress and the laws that govern our arm export programs. 
Beyond that, you have balked at the idea that you should be 
held accountable for your actions.
    On May 24th, the Secretary of State sent this committee 22 
notifications for arms sales and transfers to Saudi Arabia and 
the United Arab Emirates, totaling more than $8 billion. In a 
boilerplate memo, the Secretary argued, unconvincingly, that 
these sales, some of which the committee had already cleared, 
were exempt from the legally required 30 days of congressional 
review and action, claiming a sudden, quote, ``emergency threat 
from Iran.'' Yet, this administration has been unable to 
explain how, precisely, these sales respond to the supposed 
emergency. And at no time prior to May 24th did the 
administration once raise these sales as necessary to respond 
to the threat from Iran.
    Let me be clear. Iran has and will continue to pose a 
threat to U.S. interests and allies in the region. And I have 
and will continue to improve--approve arms sales to allies that 
are in line with our long- and short-term strategic interests 
and basic U.S. principles, such as the basic respect for human 
life. But, if you look at these sales, it appears that the 
administration had other motives. Indeed, when pressed, rather 
than explain exactly how these sales will address a supposedly 
imminent threat from Iran, you and other administration 
officials demurred and said the sales were for, quote, 
``sustaining the global supply chain,'' for preventing, quote, 
``loss of sale to peer competitors,'' for maintaining U.S., 
quote, ``credibility as an arms supplier,'' and so on.
    So, I look forward to hearing you explain today, How would 
taking away American jobs and creating a Saudi jobs program of 
manufacturing F-18 panels for export for an aircraft the Saudis 
do not own or operate respond to an emergency? How would sales 
that would not be delivered for many, many months immediately 
respond to an emergency? And, as I have been asking for more 
than a year, how does the sale of precision-guided munitions 
for use in Yemen, presumably when the same--with the same 
atrocious results and human suffering we have seen over the 
last 4 years, respond to an emergency?
    Mr. Cooper, you testified in a House hearing that the, 
quote, ``protracted process of congressional review was 
problematic for the commercial sales.'' Indeed, unless I 
misunderstood, you implied that I personally, in exercising my 
rights as the Ranking Member of this committee, was the reason 
you had to push through all 22 sales. As you well know, the 
process was protracted because neither the Secretary nor the 
Department was willing or able to make a persuasive case that 
selling precision-guided bombs to Saudi and the United Arab 
Emirates, the particular arms that I was holding, would improve 
protection of Yemeni civilians to Saudi airstrikes or end the 
UAE's human rights abuses in Yemen. In fact, not only did the 
Department not make a persuasive case, you made no case since 
last October, after Jamal Khashoggi was literally butchered, on 
orders from the highest levels of the Saudi government.
    So, Mr. Chairman, my colleagues, the Secretary of State's 
message to us is clear, ``Congress can review arms sales. Just 
do not take too long or ask tough questions. Otherwise, I will 
just ignore the law and cut you out of the process entirely.''
    Three weeks ago, in a bipartisan fashion, the Senate made 
clear what it thought of the Secretary of State's false 
emergency sales by approving an unprecedented 22 separate 
resolutions of disapproval of these sales. Two weeks ago, this 
committee approved our bipartisan bill, the Saudi Arabia False 
Emergencies, or SAFE, Act, to prevent similar abuses of the 
emergency authority in the future. I hope the Secretary and the 
administration appreciate the gravity of these actions and 
those to come.
    The informal arms sale review process under the Arms Export 
Control Act has operated successfully for decades. It worked 
because successive administrations recognized that there is a 
value in consulting with the committees about any concerns that 
could arise from a sale, and they acted in good faith.
    Simply put, Mr. Cooper, you and the Secretary have 
undermined this process. I urge you to take another look at the 
definition of ``emergency'' and rethink your approach to 
engaging Congress and abiding by the congressional oversight 
you claimed during your hearing you would respect.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Welcome, Secretary Cooper. The floor is yours.

   STATEMENT OF HON. R. CLARKE COOPER, ASSISTANT SECRETARY, 
     POLITICAL-MILITARY AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Cooper. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, and Senators.
    ``In recent days, neutral shipping has been attacked. By 
providing a deterrent against hostile actions, this transfer 
lowers the risk of a broader conflict. The determination 
reflects the United States grave concern with the growing 
escalation in the Gulf and its implication for the security of 
our friends in the region.'' These words could precisely 
describe the context of the recent emergency certification this 
hearing has been convened to discuss, but they are actually 
from a State Department announcement from 1984. Then, as now, 
Iran's revolutionary government threatened international 
shipping in the Gulf, through its proxies, supported attacks on 
American interests in the region, resulting in deaths of 241 
American service members in Beirut. Then, as now, our partners 
required the reassurance provided by an American demonstration 
of resolve. And then, as now, the administration took steps to 
deter war, not to bring it closer.
    In his May 24th certification, Secretary Pompeo advanced a 
set of arms transfers to support our partners in the current 
crisis. These capabilities include aircraft support, munitions, 
logistics services, unmanned intelligence, surveillance, and 
reconnaissance platforms, training, and advisory services. None 
of these constitute introductions of fundamentally new 
capabilities to the region. None alter the military balance of 
power. None are of a nature or category that Congress has not 
previously reviewed and approved for these particular partners.
    The Secretary's decision to exercise his statutory 
authorities under the Arms Export Control Act reflects the 
current threat from Iran as well as the persistent threat. 
Prior to making the certification, the administration saw and 
briefed Congress about an increased threat stream from Iran 
relating to both U.S. and partner interests throughout the 
region. These troubling and escalatory indications and warnings 
from the Iranian regime prompted an increased U.S. force 
posture in the region.
    Events since the Secretary's certification served to 
further validate the urgent need for these sales: Iranian 
attacks on civilian crude commercial cargo ships and tankers in 
the Sea of Oman; continued attacks by the Iranian-backed 
Houthis--these are including utilization of one particular case 
of a cruise missile against civilian commercial airports; and 
the shoot down of a U.S. Broad Area Maritime Surveillance 
unmanned aerial system in international airspace.
    These provocative actions mark a new evolution in the 
threat Iran poses to the region, to our partners, and to our 
own national security, including the security of the hundreds 
of thousands of Americans who live and work in the Gulf States. 
And the current situation in Iran has implications not only in 
the Gulf, but in a geostrategic level. In today's world, our 
partnerships are vital, and we must ensure our partners have 
the capabilities, the systems, the communications, the 
intelligence, and the training to play their due role in 
maintaining the stability and the security in their regions.
    Our adversaries recognize the importance of our 
partnerships and have adopted purposeful strategies of trying 
to disrupt them at all levels, including in terms of our 
security cooperation; for instance, by seeking to replace us as 
suppliers of choice. As such, the Secretary's certification 
should not be seen not only as a deterrent to Iran and a 
reassurance to our partners, but it is also a rebuff to our 
competitors.
    Before closing, I would like to address some of the 
specific concerns that have been raised by this committee. Many 
Senators--many Americans--are concerned about the use of arms 
we provide overseas, including in the context of the Yemen 
civil war. These concerns are appropriate, and we share them. 
From the beginning of the conflict, we have maintained a 
political solution is urgently needed, and supported the U.N.-
led effort working toward that objective. America stands out 
from many foreign suppliers of defense materiel by the premium 
we place on ensuring that our capabilities are not contributing 
to gross violations of human rights. We have worked with the 
Saudi-led coalition, over the course of its operations, to 
reduce the occurrence of civilian casualties. Our support in 
this regard has ranged from the provision of training on 
targeting to mentoring and advising the coalition on best 
practices, on lessons learned, and on integrating complex data 
into a system that is specifically designed to reduce civilian 
casualties. We have also provided higher-end legal training on 
the laws of armed conflict, and have directly and regularly 
engaged with both military and political leadership on this 
topic.
    And finally, on the question of process, during both his 
confirmation and, as cited here today, my own confirmation, the 
Secretary and I did provide you our commitments on the 
congressional review process for arms sales. That commitment 
stands. I value deeply Congress's role in the review of arms 
transfers. I take pride in the depth and the detail of the 
working relationships that we have with the committees in the 
course of this process. The Secretary's certification is not 
setting aside of that process, but it is the utilization of a 
longstanding statutory authority to respond to an urgent 
contingency. As such, I would like to take this opportunity to 
affirm the value we place in our engagement with you on arms 
transfers and broader security assistance issues.
    Mr. Chairman, in 1984, Ambassador Michael Armacost 
explained President Reagan's emergency certification to 
Congress in these words, ``Our decisions were a prudent yet 
clear response to an escalating emergency which threatens Saudi 
Arabia and the Gulf. They satisfied a clear military need. In 
addition, we sent a political signal of both reassurance and 
deterrence. It was a measured response which promotes regional 
stability and security.''
    Mr. Chairman, Mr. Ranking Member, committee members, a 
political signal of both reassurance and deterrence, a measured 
response which promotes regional stability and security, these 
are the purposes for which President Reagan certified an 
emergency in 1984, and they are the purposes for which Senate--
Secretary Pompeo invoked the same authority in May.
    Thank you. And I look forward to your questions today.
    [The prepared statement of Mr. Cooper follows:]

                 Prepared Statement of R. Clarke Cooper

    Mr. Chairman, Ranking Member Menendez, Senators:
    ``In recent days, neutral shipping has been attacked . . . By 
providing a deterrent against hostile actions, this transfer lowers the 
risk of a broader conflict. The . . . determination reflects United 
States grave concern with the growing escalation in the Gulf and its 
implication for the security of our friends in the region.''
    These words could describe the context of the recent Emergency 
Certification this hearing has been convened to discuss, but they are 
actually from a State Department announcement from 1984. A hearing took 
place 35 years ago shortly after that announcement was made, similar to 
the one we are participating in today. At that hearing, then Under 
Secretary for Political Affairs, Ambassador Michael Armacost, told 
Congress of our ``need to respond firmly and decisively to requests 
from the Gulf states for appropriate and justifiable security 
assistance.'' He added that:
    ``The states in the area must be confident that our interests in 
the Gulf are sufficiently important for us to help in a crisis. The 
United States has to be seen as a credible partner in the search for 
stability and security.''
    Then, as now, Iran's revolutionary government threatened 
international shipping in the Gulf. Then, as now, our partners required 
the reassurance provided by an American demonstration of resolve. And 
then, as now, the administration took steps to deter war, not to bring 
it closer.
    On May 24th, 2019, the Department of State notified Congress that 
the Secretary determined that ``an emergency exists which requires the 
immediate sale'' of 22 foreign military and direct commercial sales to 
Saudi Arabia, the United Arab Emirates, and, in one case, Jordan. These 
sales included aircraft support, munitions, logistics services, 
unmanned intelligence, surveillance and reconnaissance platforms, 
training, and advisory services.
    These sales and the associated emergency certification are intended 
to address the military need of our partners in the face of an urgent 
regional threat posed by Iran; promote the vitality of our bilateral 
relationships by reassuring our partners; and preserving strategic 
advantage against near-peer competitors.
    A combination of factors led the Secretary to determine the 
situation constituted an emergency and prompted him to make the 
Certification, including the significant increase in the intelligence 
threat streams related to Iran; the clear, provocative, and damaging 
actions taken by Iran's government; and the need to respond to military 
capability requests from our partners.
    Iran is a malign actor and the leading state sponsor of terrorism. 
It poses conventional and asymmetric threats to our partners in the 
Gulf, and to U.S. interests in the region and beyond. While these facts 
are well-known, we have seen new, troubling and escalatory indications 
and warnings from the Iranian regime, which have prompted an increased 
U.S. force posture in the region. Indeed, events since the Secretary's 
certification further demonstrate the urgent need for these sales : 
Iranian attacks on civilian-crewed cargo ships and tankers in the Sea 
of Oman; continued attacks by the Iranian-backed Houthis, including one 
utilizing a cruise missile, against civilian commercial airports; the 
shoot-down of a U.S. Broad Area Maritime Surveillance unmanned aerial 
system in international airspace.
    These latest actions, like those preceding the May 24th 
notification, include attacks on commercial shipping off the coast of 
the United Arab Emirates, attacks on pumping stations of the Saudi 
East-West Pipeline utilizing unmanned aerial vehicles, and a rocket 
fired into a park about a kilometer from the U.S. Embassy in Baghdad on 
May 19th. These are provocative actions that mark a new evolution in 
the threat Iran poses to the security of the hundreds of thousands of 
Americans who live and work in the Gulf States, and to the security of 
the region, and our partners.
    Our posture regarding Iran remains focused on assuring our partners 
of our commitment to enhancing their defense capabilities. This action 
is not intended to be an escalatory military step; instead, it is a 
loud and clear message to Iran that we stand by our regional partners 
at a particularly dangerous time. This set of cases demonstrates the 
United States' resolve to stand with our partners and to ensure we 
remain their partner of choice.
    In the Memorandum to Congress, the Secretary explained ``Iranian 
malign activity poses a fundamental threat to the stability of the 
Middle East and to American security at home and abroad.'' He noted 
``Iran's actions have led directly to the deaths of over 600 U.S. 
military personnel in Iraq, untold suffering in Syria, and significant 
threats to Israeli security,'' and he observed that ``current threat 
reporting indicates Iran engages in preparations for further malign 
activities throughout the Middle East region, including potential 
targeting of U.S. and allied military forces in the region.'' While the 
law requires the Department of State to notify Congress, Members of the 
Committee should understand clearly that the intended audience of this 
notification extends beyond Congress or even Iran.
    As the 2017 National Security Strategy makes clear, we are in an 
era of global competition against near-peer adversaries, including 
Russia and China. That competition includes fostering security and 
defense relationships that have political, military, and economic 
components. In such an environment it is crucial that the United States 
remain the partner of choice and be trusted as a dependable provider of 
defense capabilities--including materiel--to our partners.
    Our National Security Strategy describes the invaluable advantages 
that our strong relationships with allies and partners deliver. While 
the United States continues to build and offer our partners the most 
capable, advanced, defense technologies, we do not have a monopoly on 
fostering or maintaining reliable security relationships.
    The National Security Strategy is realistic and very clear eyed the 
United States must compete for positive relationships around the world 
as China and Russia target their investments in the developing world to 
expand influence and gain competitive advantages against the United 
States.
    Our adversaries, including Russia and China, have adopted 
deliberate, long-term strategies of trying to disrupt our partnerships 
by seeking to replace the United States as the credible supplier of 
choice. We simply cannot allow openings our adversaries will most 
certainly exploit to disrupt partnerships, to reduce our regional 
influence, to impact our defense industrial base, and to spread chaos.
    Remaining a reliable security partner to our allies and friends 
around the world is also in the interest and furtherance of our values. 
When our adversaries sell weapons of war, they do not place the same, 
if any, premium as we do on addressing the risk the capabilities we 
provide may contribute to abuses of human rights or violations of 
international humanitarian law. China does not work to expand 
transparency on the battlefield, and there is no Russian Conventional 
Arms Transfer Policy requiring action to facilitate partner efforts to 
reduce civilian casualties, which is a policy we have had in place 
since 2018.
    When President Trump issued the updated Conventional Arms Transfer 
Policy in 2018, a centerpiece of the new Policy was its unprecedented 
directive that we work with partners to reduce the risk of civilian 
harm in their military operations. We are working on the implementation 
of that directive to shape future engagements, including with partners 
in advance of conflict situations.
    Before I close, let me address a few other aspects of these sales 
and the emergency certification that may interest to you.
    First, the step recently taken by the Secretary to certify an 
emergency has ample precedent. The statutory emergency authority in the 
Arms Export Control Act was exercised a total of five times since 1979, 
across administrations, both Democratic and Republican. In two of those 
cases, it was also for sales to Saudi Arabia due to threats posted by 
other countries in the region. There is, however, one element of the 
most recent emergency notification that is new: unlike in previous 
instances this authority has been invoked, Congress was provided with 
an unclassified Memorandum of Justification by the Department of State.
    Second, we value deeply this Committee's and Congress' role more 
broadly in the review of the arms transfer process. I acknowledge the 
Committee's concerns regarding the Secretary's certification, evinced 
by actions such as your advancement by voice vote of Senator Menendez's 
SAFE Act in June. So let me be clear: we take pride in the depth and 
detail of the working relationship the Department has with the 
Committees in the course of this process. As the Secretary noted, we 
intend for this certification to be a one-time event for a discrete set 
of cases, utilizing statutory authority provided by Congress. As such, 
we view the Secretary's action as an affirmation of the value we 
continue to place on our engagement with you on arms transfers and 
broader security assistance issues.
    The Department will continue to use the Tiered Review process, the 
informal review that this Committee, and its House counterpart, conduct 
of pending arms transfers, before those transfers are formally 
notified. I particularly appreciate the Committee's staff also has 
continued to engage in this process since the certification. In fact, 
since the emergency notification on May 24, 2019, the Department of 
State has already utilized the tiered review process for a new sale of 
F-16s to Bulgaria, Anti-Radiation Guided Missiles for Germany, and 
sustainment for Morocco's F-16 fleet.
    Third, none of these sales constitute introductions of 
fundamentally new capabilities to the region; none fundamentally alter 
the military balance of power; none are of a nature or category that 
Congress has not previously reviewed and supported for these partners.
    Finally, many Members--indeed, many Americans--are concerned about 
the end use of the arms we provide overseas, including in the context 
of the Yemen civil war. These concerns are appropriate and we share 
them. From the beginning of this conflict we have maintained a 
political solution is urgently needed, and supported the U.N.-led 
effort working toward that objective. In addition, we have worked with 
the Saudi-led Coalition over the course of its operations to reduce the 
occurrence of civilian casualties.
    Our support in this regard has ranged from the provision of 
training on targeting and the supply of more precise munitions, to 
mentoring and advising the Coalition on best practices to reduce 
civilian casualties--such as the standing up and operationalization of 
the Saudi Joint Incident Assessment Team--to training on international 
humanitarian law, and direct engagement with political leadership on 
this topic. While more work is undoubtedly needed, our engagement with 
the Coalition has improved its ability to avoid civilian casualties in 
its operations.
    So that is the global, steady-state picture: the need to meet a 
present emergency; to remain engaged with partners; to ensure we, 
rather than near-peer adversaries, are their primary security partners; 
to make clear we support our partners in the defense of their realms 
and the security of the regions; and to deter our shared adversaries 
from disrupting those objectives. Or, as Ambassador Armacost put it to 
Congress all those years ago, ``Our decisions were a prudent yet clear 
response to an escalating emergency which threatens Saudi Arabia'' (and 
the Gulf). ``They satisfied a clear military need. In addition... we 
sent a political signal of both reassurance and deterrence. It was a 
measured response which promotes regional stability and security.''
    Mr. Chairman, Mr. Ranking Member, Committee Members: Those were the 
purposes for which President Reagan certified an emergency in 1984: 
and, within the context of the imminent threat posed by Iran, they are 
the purposes for which Secretary Pompeo invoked the same authority on 
May 24.
    Thank you, and I look forward to your questions.

    The Chairman. Thank you very much, Mr. Cooper.
    Do you have any current plans to invoke emergency on any 
sales in the immediate or near future?
    Mr. Cooper. No, Mr. Chairman. The authority, as you noted, 
has been limited, applied very judiciously. This is the fifth 
application. The one I cited that was the most historic 
relevance was in 1984. The first application was in 1979. It 
has been judiciously applied across administrations from 
President Carter to President Trump.
    The Chairman. You made reference, in your testimony, to the 
fact that there was the possibility, always, that someone like 
the Saudis, someone with--that has very substantial financial 
resources, could turn to one of our two major competitors on 
the globe and actually wind up in their orbit. Is that a 
substantial threat, do you believe?
    Mr. Cooper. In an open fora, I would--it is safe to address 
that there is always the risk of near-peer adversaries looking 
for opportunities, not only in the Gulf region, but anywhere on 
the globe. I would say, when we are talking about the National 
Security Strategy and how we meet near-peer adversaries, it is 
not limited to where they are geographically set. It is a 
global concern. And, back to the calculus on the emergency 
certification, it was a message, on several levels. The 
immediate one was a deterrence to Iran. There was the 
reassurance, as noted here, to these partners. But, it was also 
a warning or a rebuff to near-peer adversaries who, maybe, were 
looking to augment or seek opportunity.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Mr. Cooper, would you agree that an 
emergency usually denotes something imminent, something urgent?
    Mr. Cooper. Yes, Senator.
    Senator Menendez. I have--so, it would not refer to 
something from years ago. So, I have read this May 24th memo 
from the Secretary multiple times, and yet I just cannot seem 
to find where it lays out the emergency that these sales 
address. I see references to designations dating back to 1984, 
events from 2014, and general instability that has been 
plaguing the region for years. For years. But, nowhere do I see 
where it says what the emergency is.
    So, tell me, what is the State Department's operative 
definition of an ``emergency'' that you used for these sales?
    Mr. Cooper. Thank you, Senator.
    So, the statement you are referring to, the actual 
declaration, is an unclassified document. And you were correct 
to note that there is context in there of this particular 
adversary and their persistent threat stream, as well as what 
their proxies may or are capable of doing. What actually 
equates to an emergency, as it--where we are today--is the 
current threat posture of Iran and what was calculated there, 
from an interagency aspect. There were multiple tools, 
including this----
    Senator Menendez. But, just----
    Mr. Cooper. --declaration----
    Senator Menendez. Let me stop you, because I do not have 
unlimited time.
    Mr. Cooper. Okay.
    Senator Menendez. Answer my question. What is the 
definition of ``emergency'' that you used for these sales?
    Mr. Cooper. A confluence of conditions that were assessed 
required several tools by the administration, including an 
increase of force posture, this emergency declaration, and 
application of sanctions. That did equate an emergency status.
    Senator Menendez. None of that--none of that really has 
changed, though, from the present to the past. Did the legal 
advisor's office opine on what an ``emergency'' is?
    Mr. Cooper. The legal advisor's office assured and cleared 
on the statutory authority that was made available for the 
Secretary to make this decision.
    Senator Menendez. Did the legal advisor issue a legal 
opinion?
    Mr. Cooper. Legal advisor's office was part of the process, 
and then----
    Senator Menendez. I didn't ask you that.
    Mr. Cooper. --the decision----
    Senator Menendez. I asked you, Did they issue an opinion?
    Mr. Cooper. In this fora, I am not going to talk about the 
pre-decisional process on the option----
    Senator Menendez. Did they issue----
    Mr. Cooper. --that the Secretary had.
    Senator Menendez. --an opinion? What is a pre-decisional 
process? They either issued an opinion or they did not issue an 
opinion. Did they issue an opinion? That is not a question of a 
pre-decisional process. Do you have opinion in your possession?
    Mr. Cooper. Senator, the legal advisor's office 
participated in the application of the certification, as noted 
by statute for----
    Senator Menendez. Okay.
    Mr. Cooper. --the Secretary's----
    Senator Menendez. You are not answering my----
    Mr. Cooper. --authority.
    Senator Menendez. You are not answering my question. And I 
am not going to let you get away with what you got away with in 
the House. Either you have an opinion, in which case I want to 
see it, or, if you do not have an opinion that is written, then 
you ultimately invoked an emergency, but without a legally 
defined opinion of what that emergency is.
    Why did the State Department never utter the word 
``emergency'' to me or my staff in relation to any of these 
sales, at any point prior to the Secretary's emergency 
certification?
    Mr. Cooper. Senator, as you noted and others have noted, on 
May 21st there was a classified briefing that was provided to 
Congress. In that briefing, there was details about the current 
threat posture with Iran. This certification was an option as a 
tool, including invocation of sanctions or application of 
sanctions----
    Senator Menendez. The words ``emergency,'' Mr. Cooper, were 
never used by anyone, from the Secretary of State all the way 
down. Did you discuss declaring an emergency for these sales 
with the Secretary before the Secretary briefed the Senate and 
the House on May 21st and 22nd?
    Mr. Cooper. Senator, all the cases in the emergency, 
including cases that were not included in the certification, 
were part of our interagency process, not only with the 
Department, but the normal review process. We provided options 
for the Secretary to make his decision on application of the 
certification.
    Senator Menendez. Did you discuss an emergency as part of 
that?
    Mr. Cooper. Again, in an open fora, I would say, looking at 
intelligence community assessments----
    Senator Menendez. I am not asking you----
    Mr. Cooper. --at the time----
    Senator Menendez. I am not ask--wait a minute.
    Mr. Cooper. It is part of the----
    Senator Menendez. You want to divert to classified so you 
do not have to answer. I did not ask you a classified question. 
I simply asked you, did you declare the possibility of an 
emergency declaration prior to May 21st and 22nd? That is not 
classified.
    Mr. Cooper. No, Senator. The calculus is inclusive of that 
data, so the data is not absent of intelligence data. So, that 
is part of the consideration of----
    Senator Menendez. I am not asking you about----
    Mr. Cooper. --force posture----
    Senator Menendez. --intelligence data. I am not asking you 
about how you came to the decision of emergency in this case. I 
am simply asking you, Mr. Cooper--this is far from the 
transparency that you pledged to when you were before this 
committee, far from the transparency that led me to support 
your nomination. Simple question. Did you offer up an emergency 
as an option prior to May 21st and 22nd?
    Mr. Cooper. There were a number of considerations and tools 
made available for the interagency, inclusive of sanctions, 
this emergency, and force posture. Any of those could have been 
applied, or none of those could have been applied.
    Senator Menendez. So, you did discuss an emergency prior to 
May 21st and 22nd.
    Mr. Cooper. Threat posture is continuously assessed. It is 
assessed before May 21st, Senator. We do not stop assessing.
    Senator Menendez. Iran has been a continuing threat 
posture. Let us be honest.
    Mr. Cooper. Upticks and changes in posture----
    Senator Menendez. Your unwillingness leads to a total lack 
of transparency and is insulting to the Senate, when the 
Secretary was before us the day before he ultimately made this 
decision and never mentioned, in front of 100 United States 
Senators, that there was going to be an emergency declaration. 
I find that--overwhelmingly amazing to try to believe that all 
of a sudden an emergency came up, just right after we were 
briefed. Preposterous.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Secretary Cooper.
    Secretary Cooper, you started to mention the word 
``uptick.'' Was the assessment by yourself, others, the belief 
that there was an uptick in hostilities?
    Mr. Cooper. In a general sense, in this open fora, there 
was a shift in posture that required a number of tools for the 
administration, inclusive of this declaration, to be applied.
    Senator Gardner. And there was a concern that there was a 
strike or activity or hostility of some kind that was imminent?
    Mr. Cooper. That is correct, in a very general sense.
    Senator Gardner. Would you consider an imminent hostility 
or strike an emergency?
    Mr. Cooper. Correct.
    Senator Gardner. Thank you.
    I want to change the subject a little bit here. I would 
like to switch gears and talk a little about the Indo-Pacific.
    On December 31st, 2018, the President signed into law the 
Gardner-Markey Asia Reassurance Initiative Act, or ARIA. 
Section 209(b) of ARIA states, ``The President should conduct 
regular transfers of defense articles to Taiwan that are 
tailored to meet the existing and likely future threats from 
the People's Republic of China, including supporting efforts--
the efforts of Taiwan to develop and integrate asymmetric 
capabilities, as appropriate, including mobile, survivable, and 
cost-effective capabilities into its military forces.''
    June 28th, the Senate approved the fiscal year 2020 
National Defense Authorization Act, including my amendment 
calling for the administration to fully comply with ARIA 
provisions. And 2 days ago, on July 8th, the State Department 
approved a possible $2.2 billion sale to Taiwan, including 108 
Abrams tanks and 250 Stinger missiles. I commend the 
administration for making this decision and for implementing 
ARIA as Congress intended.
    What is your assessments of--assessment of Taiwan's current 
defense capabilities and needs?
    Mr. Cooper. Thank you, Senator.
    I will say, in an open fora, that, in addition to ARIA, 
when we were doing the tiered review process, so going back to 
the process of lines of communication with Congress, and 
particularly Senate Foreign Relations Committee, those cases 
that were formally announced on Monday that you referenced went 
through the process, as normal. In addition, ARIA also comports 
with, aligns with, the Taiwan Relations Act. So, that was--that 
factored in and still aligns with our One China policy.
    As far as their defense posture, safe to assess, and is 
well-known open source, that they certainly have a sovereignty 
of--a right to defend their sovereignty, and it is one that we 
certainly would not see impeded upon. And that does comport 
where we are with the Taiwan Relations Act.
    Senator Gardner. What is your assessment of likely and 
future threats that Taiwan faces from the People's Republic of 
China?
    Mr. Cooper. Threats to Taiwan's sovereignty are not abated 
or going away, and that are--they are something that we need to 
factor with that partner. We are a reliable partner. They also 
were a reliable partner when we were looking at making sure 
that the Indo-Pacific region is open and free. And they are a 
part of that constellation of partners to ensure that we have 
an open and free Indo-Pacific.
    Senator Gardner. Yeah. And how has the administration 
supported the efforts of Taiwan, as I mentioned, to develop and 
integrate asymmetric capabilities, the mobile, survivable, 
cost-effective capabilities, into its military force?
    Mr. Cooper. Again, with this particular partner, with the 
parameters that we have to work with them, we seek to make 
whatever capabilities robust. Again, it is about making sure 
that they are not only able to defend their sovereignty, but 
play a regional security role for an open and free Indo-
Pacific.
    Senator Gardner. One of the challenges I think that we face 
is the pipeline that needs to be filled with continued action 
as it relates to fulfill our commitment of the Taiwan Relations 
Act and ARIA as it relates to Taiwan. Could you talk a little 
bit more about the pipeline, so to speak, of what else we will 
be doing to help Taiwan and fulfill our obligations?
    Mr. Cooper. Looking forward and a way ahead, there are 
additional assets that would be going through the review 
process here at the Senate before we go to formal notification. 
And that is already happening. To your point about pipeline, 
certainly looking forward as to what capabilities may be 
required in the future, versus fighting previous, last year's, 
or different-generations' wars, looking at--back to the 
asymmetric, trans regional aspect of threats that Taiwan may be 
needing to address, not just for their own homeland 
sovereignty.
    Senator Gardner. I think part of the challenge with the 
arms sales is allowing too much time between transactions with 
Taiwan, allowing China greater opportunity to oppose, to raise 
political opposition. And if the pipeline is, indeed, filled 
and regularized, so to speak, I think that would present a 
better opportunity for the United States to engage with Taiwan 
and other allies, and to make sure that we fulfill the Taiwan 
Relations Act and ARIA, which calls for routinized or 
regularized sales versions.
    Thank you.
    Mr. Cooper. And, Senator, as you would note, their 
legislative body also has their particular processes that 
require a pipeline aspect, which is well noted at the 
Department and the--throughout the interagency.
    Senator Gardner. I commend you for the sale.
    Thank you.
    Mr. Cooper. Yeah.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Chairman, I have sat on this committee with Democrats 
in the White House, Republicans in the White House, Democrats 
controlling this committee, Republicans controlling this 
committee, and the balance in the Arms Export Control Act has 
never been breached, except for this declaration. And I think 
this is extremely serious. So, I just want to put this on the 
record.
    We pass the laws. And in the Arms Export Control Act that 
we passed, we made it clear about the mandatory nature of 
congressional involvement in arms sales. That is our 
prerogative, as the Article--first branch of government, on 
establishing policy. It is normal for us to give a national 
security waiver to a President, to give flexibility for 
unforeseen circumstances. We do that routinely in our 
legislation. But, the exercise by this administration of that 
authority shows a disrespect for Congress and could very well 
affect the comity that exists between the two branches of 
government on arms sales, which means we are going to have to 
be more prescriptive in our laws, taking away discretion from 
the executive branch of government, which may not be in our 
national security interest, but our responsibility to make sure 
our policies are carried out, which were not carried out in 
this instance.
    Mr. Cooper, you mentioned the 1984 declaration. In 1984, it 
was two sales, not 22 sales. In 1984, the arms were delivered 
immediately. That is not the case in this. And in 1984, you had 
strong support for Congress in what you were doing--what the 
President was doing. In this case, you do not. So, there is not 
an analogy between the use of the emergency declaration in 1984 
and today.
    How many of the 22 arms sales have been delivered, 
completed?
    Mr. Cooper. Of the sales, the direct commercial sales, the 
licensing has been completed----
    Senator Cardin. How many deliveries have been made of the 
22 arms sales? That is a simple question.
    Mr. Cooper. As far as specificity on the different licenses 
and different deliveries, we can provide that in a record 
statement.
    Senator Cardin. Is it not safe to say that many of those 
arms sales have not been yet delivered?
    Mr. Cooper. Licensings have been----
    Senator Cardin. Have they been delivered? As I understand 
the emergency declarations, they need the military equipment 
for our security. How many of those actual arms have been 
delivered to date? Not how many licenses have been issued. How 
many have been delivered?
    Mr. Cooper. Delivery is pending. The issuance in emergency 
was providing that reassurance for our partners----
    Senator Cardin. And I understand that. So, they have not 
been delivered. The declaration was made on May 24th. The Arms 
Control Act requires a 15-to-30-day congressional review. It is 
a requirement. You could not go through a 15-to-30-day review, 
but you have been considering this for a long period of time, 
and the arms have not been delivered. Do you understand why we 
consider this to be an abuse?
    Mr. Cooper. Senator, they had been under review. In many 
cases, close to a year. So, the cases that we talk about are 
not new. They had been under review. Now, as far as----
    Senator Cardin. I understand that, but the----
    Mr. Cooper. Okay.
    Senator Cardin. --law requires the 15-to-30 day, which you 
blew through.
    Mr. Cooper. We had covered that period, and had gone beyond 
that, Senator.
    Senator Cardin. I just urge you to recognize the risk 
factors that you are leaving for our country. If Congress feels 
disrespected by what this President has done--this 
administration has done--as to our constitutional role, it 
leaves us little choice but to limit the discretion to the 
executive branch of government, which we can legally do, 
because we are the legislative branch of government. And that 
is what is coming down.
    I want to talk one other issue, if I might, which deals 
with the U.S. Conventional Arms Transfer Policy, that the U.S. 
shall not authorize a transfer when the U.S. has actual 
knowledge that transferred weapons will be used to commit 
crimes against humanity, grave breaches of Geneva Conventions, 
or attacks intentionally directed against civilian objects or 
civilians who are legally protected from attack. You have said 
that we have been working with the Saudis to reduce the number 
of civilian casualties, better targeting, et cetera. Yet, I 
think it is undisputed that, after those consultations, there 
were still attacks in which the international community said 
have violated the international Geneva Convention and civilians 
being targeted for death. That is what has been said several 
times. I could also go to the Philippines, where we have U.S. 
weapons that have been provided, and there has been 
extrajudicial killings that we know about that violate 
international norms. How are you protecting our policy that our 
arms cannot be made available, where we have knowledge that 
these governments have participated in actions that have 
violated these international norms?
    Mr. Cooper. Thank you, Senator.
    In addition to statute, the current policy, the CAT policy, 
this administration policy, goes above the statute on those 
requirements. It does not preclude us from pushing further and 
harder. No Department of Defense, no Ministry of Defense, is 
ever going to say they have reached a satisfactory point on----
    Senator Cardin. I know. But, the law----
    Mr. Cooper. --mitigating civilian casualties----
    Senator Cardin. --requires that, if you have knowledge that 
they have violated, you do not transfer weapons. And you have 
transferred weapons after we have acknowledged that there has 
been violations.
    Mr. Cooper. We do not suspend our security relationship 
with a partner that carries so much weight for our interests 
and our equities in the region, but we are not precluded from 
following up on issues and abuses. We are not precluded from 
assuring and providing training and improvements on mitigation 
of civilian casualties. There is no abating of that. There is 
room for work. And no one has ever denied that----
    Senator Cardin. So, just so I understand your answer, you 
are saying that the U.S. Convention Arms Transfer Policy can be 
sacrificed if we have an important relationship with a country?
    Mr. Cooper. No, it should not be sacrificed.
    Senator Cardin. That is what you are doing, because you are 
transferring weapons after you have knowledge that they have 
violated international norms.
    Mr. Cooper. It does not preclude us from course correction 
or reconciliation, Senator. Our policy is not just limited to 
arms transfers. It is a--an expression, a manifestation of what 
else we export: open society, human rights. That is a part of 
our policy. We do export the best of America with our arms 
transfer policy. With that also comes the responsibility of the 
application of those weapons. Adversaries do not provide a long 
sustainment tail. They also do not provide any tail of any 
support when it comes to application and precision of those 
services or weapons. It is what is required of us, not only by 
statute. It is incumbent upon us, from a policy and moral 
aspect.
    Senator Cardin. I would just conclude by saying, you have 
tried, you have not succeeded, and you are still providing 
weapons, and that is against our Conventional Arms Transfer 
Policy.
    Thank you, Mr. Chairman.
    The Chairman. Senator Romney.
    Senator Romney. Mr. Cooper, appreciate your being here 
today.
    We have a policy, as a Nation, to sell weapons to various 
nations throughout the world. There are many reasons for doing 
that. Surely, one is to support the weapon making industry in 
our country, which provides revenue and jobs for people here. I 
presume that is a very small part of the decision-making about 
whether we are going to sell weapons someplace, and it should 
be given very limited weight in our thinking about whether we 
are going to sell weapons. Overwhelmingly, I would anticipate 
that the decision to sell weapons to other nations should be 
related to a strategic purpose that we have as a Nation. And 
so, of course, we have a strategic purpose in providing the 
most modern weaponry available to our NATO allies and to other 
nations that we have very close relationships with.
    But, then there are nations that are perhaps outside of 
that very close circle, that we also sell weapons to. And I 
would like to ask you what the decision rules are that you 
follow in thinking about those other nations, and how you 
decide what types of weapons to sell to them, and whether or 
not to sell weapons to them, and whether they fall into 
different categories, whether you have certain groups of 
countries that you sell certain types of weapons to, or, 
instead, whether you look on a one-off basis, nation by nation, 
and say, ``Well, we are going to look here, at Taiwan, 
differently than we do Saudi Arabia, than we do another 
nation.'' Do they fall into different categories? And what are 
the decision rules that you follow in deciding, not just to the 
NATO and Israel and these very, very close allies, but to these 
other nations? What are the decision rules that you follow? 
What is the U.S. interest that you seek to foster by virtue of 
the decisions that you make?
    Mr. Cooper. Thank you, Senator.
    And you are correct to assess that no partner is 
particularly on par with another partner, another ally. And so, 
to your point about circles, yes, one can say there is, 
essentially, concentric rings of what is available, but it is 
also what is capable of that partner. The assessment is not 
limited to my part of the State Department. It is a whole-of-
government assessment. This is in--all the way down at the 
field level, where we do country-team assessments through our 
Defense Cooperation Offices, as well as our political aspects. 
It does include a whole host of issues or whether you say 
factors of assessment of, where is this country, as far as a 
relationship with us, bilaterally? So, country by country. What 
particular role do they play in a partnership or in a broader 
security alliance, like NATO? Are there interoperability 
factors that we need to factor in, like NATO? Are there other 
political issues that we need to address? Are there human 
rights issues that we need to address? Are there other 
negotiations or factors that we are seeking to address or 
reconcile at the same time a sale is being considered that also 
factors in the timing and sequencing of a sale?
    Another big one that I would say is kind of a chapeau 
overall sales right now is, what are we looking at from the 
National Security Strategy, the chapeau of near-peer 
adversaries? Near-peer adversaries are not limited just to 
their home geographic regions. They are doing work in 
disruption through the globe. So, looking at a partner's 
capability to address that on our behalf is certainly a factor.
    So, there is a host of interagency whole-of-government 
factors that go into--before we even informally notify the 
Congress about a potential sell, starting at the country team 
level, working with our embassies, and then working here at the 
ministerial, interagency, as well. But, it is very much country 
by country, case by case, certainly factoring in regional 
considerations, certainly factoring in primarily our interests. 
Is it--are there U.S. persons, are there U.S. interests that 
need to be protected? And there is also an absorption issue. 
Can the partner actually take the system or this program or 
platform and actually be able to apply it? So, there are some 
capacity factors, not just on their ability to defend their 
sovereignty and defend our interests. It is, can they do it 
with what is being provided?
    Safe to say there are partners that we work with that might 
have eyes bigger than their capacities, and that is something 
that we work to actually frame better and provide them 
something--a generation or a capability that is more apropos to 
where they may be or where you would like to see them.
    But, to your question, it varies on, what is the threat in 
the region? What is our bilateral relationship? What is their 
capacity to absorb? And also, timing and sequencing of other 
strategic interests that we may be addressing in the region.
    Senator Romney. Thank you.
    Mr. Chairman.
    The Chairman. Thank you, Senator Romney.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Assistant Secretary Cooper, it has been said already, but I 
think it is worth repeating, because I share in the 
disappointment that has been expressed by members of this 
committee over the deliberate decision to ignore the intent of 
the Arms Export Control Act. It is very clear that was a 
deliberate decision to ignore that Act. Congress and the 
executive branch have a protocol on arms sales that works, that 
is fully capable of achieving our strategic goals, including 
addressing threats from Iran and Saudi Arabia's self-defense. 
And when the Secretary disrupts that protocol by declaring an 
emergency, he erodes the trust between our branches of 
government. And that has consequences. That has consequences 
for this administration, and it has consequences for future 
administrations. And I hope that you and the Secretary and 
other members of the State Department involved in this decision 
will think very carefully about what the negative consequences 
of those decisions will be.
    So, I would like to follow up on questions that have been 
asked and ask if you can describe the specific capabilities 
that Saudi Arabia and the UAE were lacking that these 22 arms 
sales address in a way that could not wait the 15 to 30 days 
for congressional approval. I have the list right here. So, I 
hope you will go through each one of those 22 arms sales and 
tell me which one of these was so immediate that it could not 
wait for congressional approval.
    Mr. Cooper. Thank you, Senator.
    On--and I have the same list--on the overall--to your 
question about capabilities and readiness, specific to any 
partner's capability or readiness or strengths or gaps, I would 
happily address that in a classified setting if we are talking 
about that specificity.
    To the list, there were a number of cases that were under 
consideration or under review already. These were the ones that 
were assessed as what would be supportive of defense of 
sovereignty in filling particular gaps. One, if you want to ask 
about some immediacy, was on some of the training and 
sustainment ones, which were reading--reaching some suspense or 
timelines that were about to not happen or we would have gaps 
there, as far as support on that.
    Senator Shaheen. But, as I understand your response to 
Senator Cardin, those have not yet been delivered. Is that 
correct?
    Mr. Cooper. The training and sustainment ones, we were 
making sure there was not a break. On licensing for DCS, those 
licenses have been completed for--and ready for delivery. On 
the FMS, those LOAs are still being completed now that we know 
that these are the ones that have been identified for movement.
    Senator Shaheen. And can you tell me whether there are any 
present or former State Department employees who have ties to 
any of the companies that are impacted by these sales, which 
may have been involved in any of the discussions to invoke this 
emergency provision?
    Mr. Cooper. I am not going to talk personnel here, but I 
will say that ED--the interagency process applied here was U.S. 
Government process only. Nobody from industry was involved in 
this process.
    Senator Shaheen. No, I did not ask that. I asked if there 
were any former State Department employees, present or former 
State Department employees with ties to companies affected by 
these sales, who were involved in the discussions around the 
emergency declaration.
    Mr. Cooper. Not that I am aware of, Senator. This was a 
government decision, interagency decision. State Department 
processes applied here.
    Senator Shaheen. And can you tell me the--as has been 
suggested, the--we are not supposed to transfer weapons--or the 
countries that we provide weapons to are not supposed to 
transfer those weapons for use on civilian targets or any 
unauthorized transfer. Yet, there have been reports that the 
UAE has supplied General Haftar, in Libya, with American-made 
missiles. Can you confirm whether that is the case? And is 
there an investigation? And how do we expect to sanction the 
UAE if the investigation shows that, in fact, they have 
supplied those missiles?
    Mr. Cooper. Yes, ma'am.
    So, Senator, there--the committee staff had a classified 
brief this Monday from the State Department specific to the 
issue raised about Javelins being present in Libya. What I can 
say in an open forum today is that the Javelins in question 
that are part of the investigation that we are conducting and 
did brief committee staff on actually belong to France, not the 
UAE.
    Senator Shaheen. And if they had shared those missiles, 
what kind of sanction would you expect us to impose on the UAE?
    Mr. Cooper. As with any partner, when there is an 
investigation of end-use violation, there are consequences that 
could be cessation or suspension of particular programs. We 
have seen that, and we have applied that with other partners. 
Sometimes it is specific to the system, sometimes it is 
actually broader. It could actually touch other security 
assistance. But, there are consequences where the Department 
and Congress have worked concurrently to identify suspense's.
    Senator Shaheen. And as I am sure you are aware, today we 
are hearing that Turkey, a NATO ally of ours, is expected to 
receive delivery of the S-400 system from Russia, NATO's 
adversary. How will the administration respond to that? We have 
requested briefings from State and Defense on this topic. When 
can we expect that kind of a briefing to happen?
    Mr. Cooper. Well, Senator Shaheen, I cannot give you a date 
certain on briefing, but what I can talk about, and you and I 
had a discussion about at my confirmation hearing, is, we--the 
administration--actually, I think all parts of government have 
been very clear to our Turkish partners, regardless if it has 
been at an operational level or up at a senior principal level, 
of there being consequences of delivery of the S-400. The 
biggest issue that has been raised and amplified and reasserted 
with Turkey, with a NATO partner, is that the S-400 is a 
challenge to interoperability as a NATO partner and is an 
affront. We have made it very clear that there are 
consequences, and they are at risk of sanctions.
    Speaking of tools provided by Congress, I mean, CATS is one 
of those tools that the administration has. I do not think 
there has been any lack of clarity to the Turkish government on 
our concern about them and their responsibilities as a NATO 
partner that they are putting at risk with the receipt of the 
S-400.
    Senator Romney [presiding]. Thank you.
    Senator Shaheen. Thank you. I am out of time, but I would 
just point out that Congress--the Senate has said that, if they 
receive delivery of the S-400, they should not receive the F-
35s or be part of that program. Is that your understanding, as 
well?
    Mr. Cooper. That--we are on the same page, Senator. That is 
very clear. They may not be listening, but we have all said it.
    Senator Romney. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Cooper, thank you for your testimony.
    I want to break this issue down into two parts: substance 
and process.
    On the substance, I agree with the administration that 
these arms sales were appropriate, not because the Saudis are 
steady and reliable allies. The Saudis are deeply problematic 
allies whose conduct often is lacking, and they have 
historically shown far too much of a willingness to get in bed 
with enemies of America. Even though they are a problematic 
ally, the Saudis are also, I believe, a critical counterweight 
to Iran. And on any rational and reasonable comparison, 
measuring the threat to the United States of America between 
the Saudis and Iran, it is not remotely close. Iran is led by 
theocratic mullahs and an Ayatollah who chants ``Death to 
America'' and is the world's leading state sponsor of 
terrorism. That is the reason that I ultimately voted with the 
administration in support of these arms sales, is because 
helping the Saudis defend themselves against Iran is in the 
United States national security interest.
    Can you articulate to this committee the threat that Iran 
poses, both to the Saudis, but, more fundamentally, to the 
United States?
    Mr. Cooper. Thank you, Senator.
    In an open fora, it has been referenced that the persistent 
threat has not gone away. That is fair. What has changed has 
been recent upticks in direct threats to U.S. persons and U.S. 
interests in the Gulf region. That is what is different.
    To our partners, there are direct threats, not only by 
Tehran, but emanating through proxies from Tehran. We discussed 
a little bit of what has been in open source and open fora 
about attacks that have been incurred upon our Saudi partners, 
our Emirate partners, on their civilian populace and on their 
infrastructure. We have talked about the Houthis and what they 
are doing to exacerbate and expand the humanitarian crisis in 
Yemen, as well as being supported by Tehran. So, the threat is 
not going to go away, but deterrence through these sales, 
deterrence through sanctions, deterrence through presence and 
posture, is a way to address it. And I would say, in a closed 
fora, we could talk articulately about specificity of timing, 
very specific threats, specificity----
    Senator Cruz. How advanced is Iran's ballistic missile 
capability?
    Mr. Cooper. In an open fora, Iran has capabilities that go 
beyond their localized scope, and are a threat to neighbors, 
and are a direct threat to partners other than the ones that we 
are talking about here today. They are--they have capabilities 
that emanate beyond Tehran to a broader region.
    Senator Cruz. Well, that is quite a bit of understatement, 
given that they are the leading state sponsor of terrorism in 
the world and they are directly responsible for the murders of 
over 600 U.S. servicemen and women.
    Mr. Cooper. And they also are a facilitator of other forms 
of terrorism beyond direct reports or what we would call 
command and control of Tehran government. There are elements 
that are not under direct C2 or direct command and control from 
the Quds Force, as you referenced. But, again, we are in an 
open fora at this time.
    Senator Cruz. Well, as I said, I agree with the substance. 
But, shifting to the process, I have to say I agree with the 
concerns that have been expressed in this hearing on both sides 
of the aisle. The process that the State Department followed 
for these weapon sales, not to put too fine a point on it, was 
crap. Under the law, under the Arms Export Control Act, the 
administration needs congressional approval and has a 30-day 
notification period. And, for whatever reason, the 
administration, in what seems to me a not-fully-baked 
decisionmaking process, decided to circumvent the law, decided 
to circumvent the constitutional responsibility of Congress and 
act unilaterally.
    Now, if you have an army surging on the border and an 
imminent emergency, that is one thing. There is, in fact, an 
exception for that. It has now been 47 days since you declared 
an emergency. Did I hear you right, in your answer to questions 
earlier, that you cannot point to a single one of these 22 
sales that have actually been delivered?
    Mr. Cooper. Licenses have been completed on the DCS side 
for delivery.
    Senator Cruz. It is a simple question. Have they been 
delivered?
    Mr. Cooper. On the servicing-and-training components, yes. 
But, if we are talking hardware, they are ready for delivery.
    Senator Cruz. So, that was 47 days ago, the emergency 
occurred. Did I also hear you right, where you said the review 
process on this was close to a year?
    Mr. Cooper. This goes back to the cases you are 
referencing, the process here. There are--there were cases that 
had been before Congress in the tiered review process for close 
to a year.
    Senator Cruz. Well, if the Department had a year to gaze at 
its navel and consider this, the Department had 30 days to take 
it to Congress and follow the law. And it was foolishness not 
to. And do not make the mistake of thinking that it is simply 
Democrats who are concerned about this. I voted with the 
administration on the substance, because of the threat of Iran, 
but I will tell you, from my end, if the administration does it 
again and there is not a live and exigent emergency, you will 
not have my vote, and I predict you will not have the vote of a 
number of other Republicans, as well. The simpler process is: 
Follow the damn law, and respect it.
    Thank you.
    Senator Romney. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Senator Romney and Ranking Member 
Menendez.
    I want to compliment you, Assistant Secretary Cooper, on 
managing to achieve a rare moment of bipartisanship on this 
committee.
    [Laughter.]
    Senator Coons. I will tell you, it is not often that my 
colleague from Texas and I agree completely on a matter. His 
statement that the Saudis are a deeply problematic partner who 
have shown, too often, a willingness to embrace enemies of our 
country, I agree with. And his condemnation, and that of many 
others on both sides of the aisle here, about the timing and 
the process, both of the consultation and the ultimate decision 
on these recent arms sales, is one of those moments that I will 
hope gets the attention of the administration.
    I appreciate your service and your testimony here today. It 
is important that we continue to have an open and constructive 
dialogue between the executive and legislative branches. And, 
on something as significant as the Arms Export Control Act and 
the complicated consequences of our sales to our security and 
military partners and allies around the world, I think it is 
essential that we ask questions and get answers.
    Most of the concerns I had intended to raise here today 
have already been addressed by my colleagues, so let me ask one 
or two additional questions.
    We have sold billions of dollars in arms to our Gulf 
partners and allies over the years. In your view, have these 
sales produced capable militaries?
    Mr. Cooper. As I was sharing earlier about partner-to-
partner capacity assessments, no partner is the same. There is 
always an ongoing assessment about their ability to absorb 
either a particular platform or system. There is always an 
ongoing assessment on their ability to be able to maintain 
their own defense of their own sovereignty. And there is always 
an ongoing assessment on their capability or ability to be a 
regional security partner and carry water for us. There are 
always, at varying degrees, sales, and potential sales are 
assessed as to how we contribute to actually improve and 
augment capabilities. Sometimes the will of a partner does not 
always marry up to a capability of a partner. And that is not 
unique. But, it does actually amplify the necessity for 
constant assessment. When I say ``assessment,'' this is not 
limited to the State Department. We share this with our 
interagency partners at the Department of Defense. We share 
this with the intelligence community. It is an ongoing process. 
It also includes, sometimes, making an honest assessment of if 
a partner--if we need to adjust what is provided to a partner.
    Senator Coons. Well, Assistant Secretary Cooper, it is 
exactly that issue, an honest assessment and an adjustment that 
lies at the core of this conversation and what I hope will be a 
constructive process, led by the Chairman, to reconsider and 
reevaluate the U.S.-Saudi partnership, or relationship. 
Because, frankly, I have grave concerns over their conduct in 
the war in Yemen, over human rights actions within the Saudi 
Kingdom and against others in the region and the world. And, in 
my view, those of us who have stood with the Saudis over a 
number of years because of concerns--legitimate concerns about 
the threat that Iran poses to the region, to the world--for 
many of us, that patience has run out. We have made persistent, 
sustained, engaged efforts to improve their conduct against 
civilians in the war in Yemen, only to be shown, over and over 
again, that they have come up short. And I think it is long 
overdue for us to reconsider, What are the limits? What are the 
limits to our relationship with the Saudi Kingdom? Are there 
times when we are putting not just our security at risk, but 
our values at risk by the ways in which a long and close 
partner is conducting themselves?
    So, I see my time is almost up. Let me just say this, in 
closing. You have heard comments today, forcefully conveyed 
from both sides of the aisle by Senators. Both the substance 
and the process for these emergency arms sales has gotten us to 
a place where the administration must respect the mandate of 
the law and the process to be followed in order for the 
executive branch to preserve the emergency exemption that 
exists in the law. If not, I suspect this body will act and 
restrict or remove that ability for future emergency waivers 
altogether.
    Thank you.
    The Chairman [presiding]. Thank you, Senator Coons.
    I think those remarks are well taken. There is a lot of 
frustration right now. And we have a confluence of events that 
has gotten us to this point, and reevaluation is really, really 
important. And I really hope that--this morning I dropped, as 
you know, the bill Senator Shaheen and I are cosponsoring that 
is a bipartisan bill that strikes at that very issue and calls 
for a reevaluation and some very specific steps in that 
regard--I am really hoping that all of us can join together to 
pass a piece of legislation. Obviously, there is--it does not 
go as far as many people would like to go, particularly when it 
comes to some of the specifics of recent events. But, again, I 
think we should not focus on that as much as actually 
developing a bipartisan method for reevaluating the 
relationship. Because it has headed south on us since about 
2015, and it--unfortunately, it is right at a time when our 
challenges from Iran are getting substantially more significant 
as we try to respectfully and reasonably impose the sanctions 
for what they are doing. And all of this causes a Rubik's Cube 
kind of a problem. But, look, we are up to this. We have done 
other things that are as difficult. And I hope we will all join 
together, in the next couple of weeks, as we try to work on 
this piece of legislation.
    But, thank you for your remarks. I think your expression of 
frustration on parts of virtually everybody up here is well 
taken. Thank you, Senator Coons.
    With that, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, Assistant Secretary Cooper, thank you for your 
testimony.
    My colleagues have done a good job of laying out the 
concern about compliance with the statute. And I am going to 
just go a different direction. And the direction is one word: 
Why? Why? Why bypass Congress on arms sales to the Saudi? Why 
bypass Congress and not provide Congress the traditional 
notification, when part (a)(10) authorizations are entered into 
to allow transfers of nuclear know-how to the Saudis? Why veto 
the congressional repudiation of the Saudi-led war in Yemen? 
Why refuse to comply with the direct congressional request 
under the Magnitsky Act to render a determination about whether 
the assassination of Jamal Khashoggi was a human rights 
violation or not? There are a series of instances, with this 
administration, where, in response to congressional action, 
and, in some cases, clear congressional mandates, in matters 
dealing with Saudi Arabia, that the administration is taking 
very unusual action.
    Mr. Chair, I would like to introduce for the record a 
report from the House Oversight Committee, dated February 2019, 
``Whistleblowers Raise Grave Concerns With Trump 
administration's Efforts to Transfer Sensitive Nuclear 
Technology to Saudi Arabia.''
    The Chairman. That will be entered in the record. Thank 
you, Senator.

    [The information referred to above can be accessed by the 
following link: https://oversight.house.gov/sites/
democrats.oversight.
house.gov/files/Trump%20Saudi%20Nuclear%20Report%20-%202-19-
2019.pdf]

    Senator Kaine. Let me just list a series of dates. And, 
Assistant Secretary Cooper, this is not really in your 
bailiwick, it is a broader set of questions for the 
administration that I know I and many other members of the 
Senate are concerned about.
    As a candidate for President in August of 2015, then-
candidate Donald Trump said, quote, ``Saudi Arabia, I get along 
great with all of them. They buy apartments from me. They spend 
40-50 million bucks. Am I supposed to dislike them?''
    Shortly after he was inaugurated, in May of 2017, President 
Trump took his first visit abroad to Saudi Arabia, to Riyadh, 
and he announced a $110 billion arms deal.
    In December of 2017, the Trump administration approved a 
part (a)(10) authorization authorizing transfer of nuclear 
know-how to the Saudis. In the past, this information had been 
publicly noticed to both Congress, the press, and the public. 
This notification--this authorization of transfer to the Saudis 
was not notified to Congress in December of 2017.
    Within a month after the first transfer of this nuclear 
know-how to Saudi Arabia, an investment in real-estate firm 
Brookfield Business Partners announced a plan to do an unusual 
purchase for them. They bought Westinghouse Electric, one of 
the primary nuclear service industries in the United States, 
for $4.6 billion.
    Shortly after Brookfield bought Westinghouse, Secretary 
Perry began testifying on the Hill in public settings, saying 
it was our goal as a nation to get the Saudis to use 
Westinghouse to construct reactors in Saudi Arabia. Public 
testimony about Westinghouse.
    In August of 2018, Brookfield, which owns Westinghouse, 
made another unusual investment. Jared Kushner had a troubled 
real-estate deal on Fifth Avenue, New York, and Brookfield came 
in and entered into a 99-year lease worth more than a billion 
dollars that was--that has been reported as, essentially, 
bailing out a troubled deal. And they paid all of the lease 
money for 99 years up front. They paid it up front. After the 
administration has been promoting their Westinghouse-now-owned 
subsidiary to the Saudis, and transferring nuclear technology 
to the Saudis, Brookfield now comes in with a massive 
investment in Jared Kushner's personal property.
    In October of 2018, Virginia resident and Washington Post 
journalist Jamal Khashoggi was murdered by the Saudi regime. 
Within just a very few weeks--days after that, the Trump 
administration approved another nuclear transfer under part 
(a)(10) to the Saudis without informing Congress or the public.
    In November of 2018, President Trump said the U.S. stands 
with Saudi Arabia after Khashoggi's murder, even though the 
U.S. Intel Committee was saying that the royal family, and 
possibly MBS, was complicit in that murder.
    Congress directed the administration, under the Magnitsky 
Act, to determine whether or not there was a human rights 
violation in February of 2019. The White House responded and 
refused to render a determination.
    With days after that, they did another part (a)(10) 
transfer to the Saudis that they refused to notify Congress 
about.
    In April of 2019, President Trump vetoed the bipartisan 
resolution to end U.S. military support for the Saudi-backed 
war in Yemen.
    In May of 2019, the State Department submitted the 
emergency notifications we are talking about today, saying that 
they did not have time, because of the emergency, to notify 
Congress, when, 47 days later, by your own testimony, the 
hardware has not actually been delivered.
    And just last month, the U.N. published a Special 
Rapporteur's Report concerning the state-sponsored murder of 
Jamal Khashoggi, encouraging the U.N. and the FBI to continue 
to do more criminal investigation, which, as far as we know, is 
not being done.
    This is the material that the House Oversight Committee is 
looking at. This is the material that we are very interested 
in. When you look at the financial ties between the President's 
own family and companies that stand to benefit, and that are 
being publicly promoted by the Secretary of Energy to benefit 
from this deal, and you ask the question of, Why is the 
administration bypassing Congress, not on matters dealing with 
other countries, but, again and again and again, on matters 
dealing with Saudi Arabia?--I think the hearing that we are 
having today is just the very tip of the iceberg about what 
Congress needs to do to exercise oversight about why there is 
such a departure from the ordinary course of business on 
matters of such national security sensitivity with respect to 
Saudi Arabia.
    With that, Mr. Chair, I appreciate it.
    The Chairman. Thank you, Senator Kaine.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    You know, it looks to us, these days, as if the United 
States is the junior partner in this relationship. I think of 
all of the timeline that Senator Kaine just went through. The 
idea that we transferred the Saudis nuclear technology 
literally days after the dismemberment of a journalist under 
U.S. protection came to light causes us all to wonder whether 
this is just one big scam. And I am glad we are doing this 
hearing.
    I want to drill down on part of your testimony, Mr. Cooper, 
with respect to the purpose of our continued coalition with the 
Saudis. You say in your testimony that, quote, ``We have worked 
with the Saudi-led coalition over the course of its operations 
to reduce the occurrence of civilian casualties.'' But, that is 
not, in fact, true. In fact, the opposite is true. Civilian 
casualties are dramatically increasing. In 2017, airstrikes 
killed approximately 2700 civilians inside Yemen. In 2018, 
airstrikes killed approximately 4600 civilians inside Yemen. 
And reports are consistent that approximately one-third of 
coalition airstrikes are hitting civilian targets. That number 
has not changed.
    So, do you have different numbers, or do you agree with 
this broad assessment that civilian casualties are increasing, 
not decreasing?
    Mr. Cooper. On the tragedy of the civilian casualties, 
there is an uptick, what we have seen from the Houthi activity, 
on civilians. I would offer, on the----
    Senator Murphy. That is not what I asked. I asked about the 
airstrikes. The airstrikes--the reports are that almost twice 
as many civilians were killed by airstrikes--and the airstrikes 
are by the coalition--in 2018 than 2017. Your testimony says 
you have worked to reduce civilian----
    Mr. Cooper. Correct.
    Senator Murphy. --casualties. The data says they doubled.
    Mr. Cooper. Correct. There is ongoing work to not only 
mitigate, but also refine targeting. So, this is not limited to 
where targets are conducted by the coalition. This is how they 
actually conduct the work. This is also avoiding areas where 
there would be civilian casualties. That work is not abated. It 
has actually been increased. We can talk to further detail 
about that.
    Senator Murphy. So, work has increased. But, just to get 
the facts right, I--your wording in the testimony is careful. 
You say you have ``worked with them to reduce civilian 
casualties.'' But, would you concede that civilian casualties 
from airstrikes has increased, not decreased?
    Mr. Cooper. I cannot speak to the exact numbers, but I can 
tell you that as--what we have done on capabilities to mitigate 
has increased on mitigating civilian casualties----
    Senator Murphy. Why can you not speak to numbers? I mean, 
do you not keep--you--do not--if you are working with them to 
decrease civilian casualties, would you not keep the numbers?
    Mr. Cooper. On the interagency, we do work with our 
partners, with DOD and others, to get them to a capacity where 
they are more precise in identifying targets, more precise in 
executing their targets, and actually in avoidance of certain 
localities----
    Senator Murphy. I know that you work to that. I know that 
you are trying to work on that. But, you cannot testify before 
us today as to what the actual civilian casualties are. You do 
not know whether they have increased or decreased.
    Mr. Cooper. The numbers associated with civilian casualties 
are not limited to what has been attributed to coalition 
numbers, Senator.
    Senator Murphy. But--okay, so you--do you know, or do you 
not know, whether civilian casualties have increased due to 
coalition airstrikes?
    Mr. Cooper. I would say, in a general sense here, that 
there is a delta in information on what is attributed to a 
coalition-ascribed casualty and what may be ascribed to either 
a Houthi or one of the adversarial----
    Senator Murphy. All right. I will be happy to give you some 
fairly definitive information that states that they have 
doubled over time. And the fact that you are talking around 
this is maddening.
    You talked earlier about consequences that would run to a 
U.S. ally that transfers arms that we have given to them to 
third parties not authorized to be the recipient of U.S. arms. 
As you know, in February of this year, there was a very 
disturbing report that suggested multiple U.S. weapon systems 
had been transferred to private militias operating inside 
Yemen. Reports are that U.S.-made Oshkosh armored vehicles were 
transferred to Abu Abbas, which is a militia linked with al-
Qaeda. And UAE--and UAE's government, in fact, confirmed that 
they have transferred MRAP vehicles to the Giants Brigade, a 
Salafist militia that is doing work on the UAE's behalf inside 
Yemen.
    Have you come to the conclusion that these transfers were 
made? And, if you have, what have the consequences been, and 
how can you justify continuing to sell arms to countries that 
are openly advertising that they are taking the weapons we give 
them and the vehicles we give them and giving them to others 
that are not authorized to be in the possession?
    Mr. Cooper. Thank you, Senator.
    The UAE remains a security partner for us in the region, 
not just for their sovereignty, but also for our interests and 
equities. However, it does not preclude us from an 
investigation, it does not preclude us from following up, and 
it does not preclude us from any imposition or consequences.
    So, specific to the MRAP question, that--I have been in 
long enough to be able to directly address that issue with 
Emirati government. We are working with our embassy to get more 
detail and finality on that issue. It is an ongoing 
investigation. It has not been completely resolved. But, we 
have directly approached the Emirati government, at a 
ministerial level and at a working level, specific to the 
reported MRAP transfer.
    Senator Murphy. My time is up. But, they have publicly 
confirmed that they transferred the MRAPs. There is no 
investigation needed. They told a CNN reporter that they gave 
the MRAPs to the Giants Brigade. And so, that report, coming in 
February, does not need a 5-month-long investigation. And part 
of our frustration about this new transfer of weapons to the 
Emiratis is, it signals that there are no consequences. And so, 
I would hope that this committee would make some further 
inquiry as to why an investigation is still ongoing, when, in 
February, the UAE government confirmed that they had taken 
these MRAPs and given them to a Salafist militia inside the 
UAE.
    Sorry I went over my time. Thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. During the June 12th House hearing on the 
so-called emergency, you said, quote, ``Holding a partner 
accountable does not preclude us from working with a partner. 
If anything, detaching ourselves from a partner, removing 
ourselves from our partner, puts at risk ensuring that 
accountability.'' So, anyone remotely familiar with this 
subject sees the Trump administration has not held Saudi Arabia 
and the UAE to account for their unacceptable actions. In fact, 
it has rewarded them. And that fits a pattern of the Trump 
administration appeasement of the Saudis, including by, one, 
providing access to nuclear know-how; two, supporting an 
immoral war in Yemen; three, breaking our word on the Iran 
nuclear deal; and, four, helping Riyadh escape accountability 
for the murder of Jamal Khashoggi and for the use of child 
soldiers. So, this accountability you speak of is purely 
theoretical accountability.
    So, Mr. Cooper, would China keep selling arms to countries 
that are committing human rights violations?
    Mr. Cooper. I am sure China has, I would say, not any 
parameters or any bar that would preclude them from selling to 
any customer that was willing to receive their equipment or 
sub-par services.
    Senator Markey. So, would Russia keep selling arms in such 
a case to countries that are committing human rights 
violations?
    Mr. Cooper. Senator, I would say that any of those 
adversaries probably do not have the limits, the parameters, 
the requirements that we, the United States Government, expect 
from any of our security partners, regardless of what region 
they are in.
    Senator Markey. So, in practice, other countries require no 
accountability for the sales of deadly weapons. So, why is the 
United States doing what China or Russia would do in this 
situation? We are not extracting any accountability from the 
Saudis any more than the Chinese or the Russians would, so why 
should we continue?
    Mr. Cooper. Well, blessedly, we are not operating on the 
same limited parameters or lack of parameters that those 
adversaries would be operating under. If anything, we have very 
tight parameters. We are also transparent. Those two 
adversaries you referenced do not operate in a transparent 
fashion either with their legislative branch or with their 
partner that they are doing dealings with. The recipient 
country probably does not--their populace is not, probably, 
aware of what system or sale that they have been signed up for, 
their government has committed it into.
    Senator Markey. All right. But, the----
    Mr. Cooper. And we also provide----
    Senator Markey. --point----
    Mr. Cooper. --we also provide sustainment in a way that an 
adversary does not. We make sure that our partners, if they 
receive or purchase a platform or system, know how to operate 
it, that it is operable, that we make sure that they can be 
capable and ready for----
    Senator Markey. But, what you are----
    Mr. Cooper. --our security interests.
    Senator Markey. But, what you are saying is that we have 
transparency, so everyone knows that we are selling the 
equipment. We actually give them good training so they can 
operate the equipment. So, that is great. But, we do not 
actually, then, hold them accountable for their human rights 
violations. And so, I--we are transparent about that, as well. 
And so, yeah, maybe the Chinese or the Russians are not as 
transparent, but they also do not require any human rights 
compliance.
    So, your argument that we should be a reliable security 
partner, and that will further our values, that just, 
unfortunately, demonstrates that the Trump administration's 
standards are no higher than those of China or of Russia, and 
we are in a race to the bottom, in terms of what our standards 
will be on human rights. And, thanks to the Trump 
administration, our ability to push our security partners for 
accountability and moral leadership is theoretical platitudes 
rather than a practical reality.
    It is critical that the United States be the moral leader, 
the country that upholds the rules-based international order, 
the country that advances fundamental rights, freedoms, and 
accountability. But, the Trump administration intentionally is 
overlooking human rights considerations in our arms exports and 
using the guise of a, quote, ``emergency'' to do so.
    So, Mr. Cooper, there is a wide bipartisan agreement that 
your efforts have been insufficient. And I have yet to see any 
evidence that the administration has any standard for how many 
bombed hospitals or how many targeted activists it would take 
to have the Trump administration change its course.
    The problem is that the Trump administration refuses to 
actually use the very influence that you say that the arms 
sales provide. We have a dearth of leadership on the global 
stage, and anytime leaders around the world hear this 
administration refer to its morality, it rings increasingly 
hollow, Mr. Cooper. We need some evidence to convict this 
administration of actually having stood up for human rights in 
Saudi Arabia. Some evidence that that has happened. Thus far, 
it is still not evident to the American people.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator----
    Mr. Cooper. If I may, there is an--and, Senator, you are 
right to point out the necessity for us to not only export our 
know-how and our technology, but also to export what is what 
makes America unique. And that is export our values, export our 
open society, our free society. And we do do that. That is part 
of the process.
    Specific to Saudi Arabia and UAE, there are dissident 
voices that are being supported by the administration, by the 
Secretary. There are cases that the Secretary is pressing 
specifically, as well as Ambassador Abizaid. There are also 
other human rights concerns that are not always enumerated in 
the open report. There is the annual report that our Department 
produces. But, those factors are not precluded at all. We can 
work with partners, but it--and we can also continue to address 
issues of concern that are about open society, free society, 
dissident voices, and human rights. We can do both. We have 
done both as a country. And we continue--can do so.
    Senator Markey. Again, I--I thank you, but, again, Yemen, 
Khashoggi, nuclear know-how, pulling out of the Iran nuclear 
deal--I just think it is a one-way street, here. And there may 
be some small exceptions. But, on the larger picture, the 
United States is not standing up for the human rights values 
that we profess to be the world leader on.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Cooper, as the Assistant Secretary for Political-
Military Affairs, I assume you understand the difference 
between the informal review process on arms sales with this 
committee and the Senate-wide 30-day formal statutory review 
and resolution of disapproval. Is that a fair statement?
    Mr. Cooper. Yes, Senator, and including how that is defined 
by if someone is a NATO ally or a different partner status.
    Senator Menendez. Well, I do not know about NATO allies. I 
simply care about what we do here.
    So, in that regard, when you answered Senator Cardin and 
said some of these had been pending a year, the reality is, is 
that at--as it relates to the statutory 30-day Senate-wide 
review, you blew through that. So, that is not a completely 
accurate answer.
    Let me ask you this. Forty-seven days after the Secretary 
claimed that there was an emergency, is it not true that State 
has not even given the government-to-government draft contracts 
to the Saudis and Emirates for all eight of the foreign 
military sales?
    Mr. Cooper. There is ongoing on the LOAs for FMS, there is 
the working with the government-to-governments on if they have 
to be adjusted because some of them were dated during the--as 
you noted, the informal review process. So, it is getting some 
of those to date.
    What is complete are the licenses on the DCS side, sir.
    Senator Menendez. I did not ask you that. I mean, I 
appreciate you answering questions that I did not ask.
    Let me reiterate. Is it not true that State has not given 
the government-to-government draft contracts to the Saudis and 
Emirates for all eight of the foreign military sales? Yes or 
no?
    Mr. Cooper. I cannot attest to the exact status of that 
here right now, Senator.
    Senator Menendez. You are the Assistant Secretary of State 
in charge of arms sales in this matter. There is an emergency. 
You know what this hearing is all about. And you cannot tell me 
that?
    Well, let me help you out. As of July 1st, there have been 
three letters of offer and acceptance for the eight military 
sales. You cannot wait 30 days for the statutory Senate-wide 
congressional review of these sales, and yet, 47 days after the 
Secretary's declaration of an emergency, the administration 
still has not offered the government-to-government contract on 
a whole host of these. So, what is the sense of the emergency? 
What is the sense of the emergency?
    Let me turn to something else. Has anyone at the State 
Department or the White House told, directed, or advised you 
not to answer specific questions during this hearing?
    Mr. Cooper. No, I have not received any of that guidance.
    Senator Menendez. Okay. Then I expect a full and complete 
answer from you.
    To your knowledge, did anyone in the White House advocate, 
direct that the State Department find a way to move these sales 
to Saudi Arabia, the UAE, or both, despite both my and Chairman 
Engel's holds?
    Mr. Cooper. I am not aware of that, Senator. What I am 
aware of is, this was the Secretary's decision to make. It was 
an option for the Secretary. It was a tool for the--a tool of 
deterrence for the Secretary.
    Senator Menendez. So, the State Department made this 
decision fully independent of the White House, is what you are 
telling me.
    Mr. Cooper. I can tell you, from where I sit, that 
Secretary Pompeo had several tools to look at, including 
imposition or application of sanctions. This was another set of 
tools in his toolkit to deter Iran. It was his decision to 
make, Senator.
    Senator Menendez. Let me reiterate my question. Did the 
State Department make this decision fully independent of the 
White House, yes or no? I do not want to hear about the toolkit 
and----
    Mr. Cooper. No, no.
    Senator Menendez. --the tools, you know----
    Mr. Cooper. But--so, there is an interagency process that 
is required. All these cases went through that. That is 
including NSC knowledge of these cases. So, the cases----
    Senator Menendez. So----
    Mr. Cooper. --went through an interagency process, 
including----
    Senator Menendez. So, through the interagency process, the 
White House was involved.
    Mr. Cooper. They would have to be, like on all cases. We 
just talked about Taiwan today. They would be in part of that 
process of the review of any case----
    Senator Menendez. You----
    Mr. Cooper. --any arms case.
    Senator Menendez. You were confirmed on April 30th of this 
year. Is it not true that, upon your confirmation, there were 
already discussions taking place at the State Department about 
evoking an emergency declaration on some or all of the 22 arms 
sales?
    Mr. Cooper. What I can attest and affirm is that there is 
always an ongoing assessment on any of the cases that we have, 
not just the Gulf ones that we are talking about today. Those 
would certainly----
    Senator Menendez. I am only----
    Mr. Cooper. --have precluded----
    Senator Menendez. I am only interested in the ones we are 
talking about today----
    Mr. Cooper. There would have been ongoing----
    Senator Menendez. --conversations, at the time that you 
took office, that there were already discussions at the State 
Department, in terms of invoking an emergency declaration on 
these sales.
    Mr. Cooper. I cannot speak to an emergency declaration, but 
I would say it is safe to assess that these cases in the 
emergency declaration certainly would have been under----
    Senator Menendez. What----
    Mr. Cooper. --consideration and of interest----
    Senator Menendez. What----
    Mr. Cooper. --as one is looking at the posture of their 
defense, their sovereignty, their----
    Senator Menendez. What they----
    Mr. Cooper. --ability to be a security----
    Senator Menendez. What day----
    Mr. Cooper. --partner----
    Senator Menendez. What day did you first discuss, with 
anyone in the Department, invoking an emergency declaration for 
these sales?
    Mr. Cooper. In an open fora, I am not going to talk to that 
or the pre-decisional----
    Senator Menendez. Well, what--``pre-decisional''? Wait a 
minute.
    Mr. Cooper. This is the Secretary's decision, Senator.
    Senator Menendez. It is not a question of--I am not asking 
about the Secretary's decision. You know--what privilege are 
you asserting? You keep talking about ``pre-decisional.'' What 
privilege are you asserting?
    Mr. Cooper. The interagency review of what was taking place 
before we do information notification on any case, also the 
review of the intelligence----
    Senator Menendez. That is not----
    Mr. Cooper. --assessments.
    Senator Menendez. That is not a privilege. You are 
testifying before the Senate's oversight committee of this 
particular Department, and there is no legal basis to refuse to 
respond, regardless of whether it is pre-decisional or not.
    So, I am simply asking you for a date. When did you first 
discuss, with anyone in the Department, invoking an emergency 
declaration?
    Mr. Cooper. As to a specific date, I cannot tell you, but I 
can tell you that being read into the Department, the Iran 
threat was certainly of interest. It is--would be for anybody 
who would be coming into the Department at that time. And any--
--
    Senator Menendez. But, the Iran threat----
    Mr. Cooper. --any----
    Senator Menendez. The Iran threat that you now justify is 
not the same threat, back in April of this year.
    Mr. Cooper. There is a posture shift. There is a posture 
shift. But, I would say that anybody arriving in the national 
security framework in a different capacity----
    Senator Menendez. Well, I would ask----
    Mr. Cooper. --would be getting----
    Senator Menendez. --I would ask----
    Mr. Cooper. --read onto a number of----
    Senator Menendez. --I would ask you----
    Mr. Cooper. --statuses.
    Senator Menendez. --to look at your calendar and respond to 
me in writing. When was the first date that you began to 
discuss an emergency declaration on these 22 arms sales? Will 
you do that for the record?
    Mr. Cooper. Will look for the QFR, Senator.
    Mr. Cooper. I do want to reemphasize that review of any 
particular threat posture would have been part of my read-on. 
Fortunately, I was already in the national security framework, 
so much of that was not----
    Senator Menendez. My----
    Mr. Cooper. --news to me.
    Senator Menendez. My point is that the threat posture in 
April is not the threat posture that now justifies----
    Mr. Cooper. No, it is an adjusted posture, but it was one 
that was----
    Senator Menendez. Let me----
    Mr. Cooper. --relevant to the time and----
    Senator Menendez. Let me ask you, today, one final 
question. I will have a whole bunch for the record, but not to 
delay the hearing anymore, and there is another vote on the 
floor.
    Give me a simple yes or no. Did you or the Department 
receive a legal written opinion on this declaration?
    Mr. Cooper. Our legal office, our legal advisory, was that 
it was within the statute that Congress had passed and was 
within the realm of the Secretary's authorities----
    Senator Menendez. I asked----
    Mr. Cooper. --to apply.
    Senator Menendez. I did not ask you that. Thank you for 
answering a question I did not ask you. You have become very 
good at that. I asked you a very specific question. Did you 
receive a written--underlined, underscored--written legal 
opinion?
    Mr. Cooper. There was legal opinion provided for the 
process, Senator----
    Senator Menendez. A written legal opinion? Not legal 
opinion. A written legal opinion.
    Mr. Cooper. There was a number of reviews that took place 
in the interagency, including legal, on what was in the 
statute, what was applicable, and what was available for the 
Secretary----
    Senator Menendez. Mr. Cooper, you are an incredibly bright 
man. You have served the country well in so many different 
ways. It pains me to have to go through this with you, but I 
will try a third time.
    Written. Was there a written legal opinion? Yes or no?
    Mr. Cooper. Senator, there were multiple reviews and 
multiple writings, not just from legal, but the interagency, on 
this. So, this was not a--this was not a--this was a very 
prudent process, so it is--we are talking a detailed review 
that took place for the Secretary to have that option to make a 
decision.
    Senator Menendez. Mr. Chairman, this is why we have 
challenges here. This is why--I try to work together to achieve 
certain goals. But, when a simple answer, ``Yes, there was a 
written opinion,'' ``No, there was not a written opinion,'' 
``There was a verbal opinion,'' ``There was an oral opinion,'' 
it--I mean, when there is not responsiveness like this, then I 
have limited resources of what I can do to try to get a 
response. And that--and then creates the need to pursue those 
limited resources. And if I could only get, you know, honest, 
transparent answers to my questions, not to every gobbledygook 
that has nothing to do with my question, then we could all move 
along a lot further, we could all achieve a lot more, and we 
could all find more comity. But, for so long as this is the 
type of answer I am going to get, then I am going to use all 
the tools at my disposal to get the right answers, to get the 
honest answers, to get the transparent answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Menendez.
    My experience in court is that all you can do is ask 
questions, but you cannot make them answer the questions the 
way you want them answered. So, that is just the way it is.
    And, with that----
    Senator Menendez. Mr. Chairman, it is not ``the way I want 
them answered.'' I would just like to get an honest answer.
    The Chairman. Got that. But, the--again, you can only craft 
the questions, you cannot craft the answers.
    In any event, that will conclude our hearing today.
    Mr. Cooper, thank you very much for being with us today.
    The record will remain open until the close of business on 
Friday. And we would ask that--the witness to respond as 
promptly as possible. Your responses will be made a part of the 
record.
    With that, again, thanks from the committee. And the 
committee is adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of R. Clarke Cooper to Questions 
                  Submitted by Senator James E. Risch

    Question. Will you commit to consulting with Committee leadership 
in advance of any future potential emergency declarations?

    Answer. I am committed to the Congressional review process for arms 
sales. I value deeply Congress' role in the review of the arms transfer 
process; I take pride in the depth and detail of the working 
relationship we have with the Committees in the course of this process. 
The Secretary's certification is not a setting aside of that process, 
but the utilization of a longstanding statutory authority to respond to 
an urgent contingency. As such, I take this opportunity to affirm the 
value we place on our engagement with you on arms transfers and broader 
security assistance issues.

    Question. Do you foresee needing to use the emergency authority to 
address any other current or likely scenario in the near term?

    Answer. It is our hope and intent that this use of the emergency 
authorities under the Arms Export Control Act will not need to be 
repeated.
                               __________

              Responses of R. Clarke Cooper to Questions 
                  Submitted by Senator Robert Menendez

    Question. What is the State Department's operative definition of an 
``emergency''?

   Did the Legal Adviser's office opine on what an ``emergency'' is?

   If so, was that opinion in writing?

   If so, will you provide a copy of that written opinion to the 
        Committee?

   If not, what legal privilege is State claiming to exercise that 
        prevents it, or enables it, from providing that written opinion 
        to the Committee?

    Answer. While the Office of the Legal Adviser (L) did not provide a 
``written opinion'' on the definition of ``emergency'' under section 36 
of the Arms Export Control Act, L reviewed and cleared the action 
memorandum to the Secretary to approve the emergency determination and 
related memorandum of justification, consistent with regular practice. 
To support the Department's response to specific questions raised by 
the committee, L also provided legal advice on other issues, including 
through written analysis.

    Question. Why did the State Department not inform Senator Menendez 
or his staff that an emergency declaration for these arms sales was 
being contemplated, or was going to be invoked, prior to May 24, 2019?

    Answer. The Secretary met with members of Congress on May 21, 2019. 
This briefing was intended to provide Congress with classified 
information regarding the developing Iran threat posture. The Secretary 
made the emergency determination based on a number of factors, 
including the significant increase in the intelligence threat streams 
related to Iran; the clear, provocative, and damaging actions taken by 
Iran's government; and the need to respond to military capability 
requests from our partners in the Gulf region. This situation made it 
urgent to move forward with these cases for which the Department had 
repeatedly sought Congressional support.

    Question. Did anyone from State Department inform any Member or 
staff of the Senate Foreign Relations Committee prior to May 24, 2019, 
about consideration of, or a decision made, to make the emergency 
declaration issued by the Secretary of State on May 24, 2019?

    Answer. The Secretary met with members of Congress on May 21, 2019 
to provide classified information regarding the developing Iran threat 
posture, which included consideration of long-held risks associated 
with Iran's malign behavior in the past, as well as more recent 
escalations.

    Question. How many FMS Letters of Offer and Acceptance have been 
concluded, and how many have been transmitted for consideration, to the 
governments of Saudi Arabia and the United Arab Emirates?

    Answer. All initial licenses or approvals have been issued for the 
14 Direct Commercial Sales cases. Of the eight Foreign Military Sales 
cases, two have been offered to Saudi Arabia, one has been offered to 
the UAE, and we anticipate offering the remaining five in the coming 
months.

    Question. How many of the 13 commercial sales have begun delivery? 
Which ones? What percentage of deliveries have been made so far of the 
total authorized in each sale?

    Answer. This information is sensitive and/or proprietary to the 
U.S. companies involved; the Department would be happy to brief you on 
this information in an appropriate setting.

    Question. Many of these sales could take months or years to be 
delivered, isn't that right?

    If so, and these sales are important to build Saudi and UAE 
capacity to defend against a threat from Iran, does the expediting of 
these sales via an emergency declaration also give Iran an incentive to 
attack sooner, before the months and years pass for these weapons to be 
brought to bear against them?

    Answer. Our posture regarding Iran remains focused on assuring our 
partners of our commitment to enhancing their defense capabilities. 
This action is not intended to be an escalatory military step; instead, 
it is a loud and clear message to Iran that we stand by our regional 
partners at a particularly dangerous time. This set of cases 
demonstrates the United States' resolve to stand with our partners and 
to ensure we remain their partner of choice.

    Question. What date was the first discussion in the State 
Department regarding invoking an emergency determination for these 
sales?

    Answer. I cannot speak to deliberative, pre-decisional 
communications that may be subject to Executive Branch confidentiality 
interests.

    Question. When, specifically, did the Secretary decide to use an 
emergency declaration for these sales?

    Answer. Secretary Pompeo made the determination on May 24, 2019.

    Question. Did State Department personnel discuss declaring an 
emergency for these sales with the Secretary before the Secretary 
briefed the Senate and the House on May 21 and 22?

    Answer. I cannot speak to deliberative, pre-decisional 
communications that may be subject to Executive Branch confidentiality 
interests.

    Question. You testified at the House hearing that the decision memo 
to the Secretary was prepared, quote, ``right before we issued the 
declaration.'' On what date, specifically, was that memo prepared?

   What does ``right before'' mean? An hour? 8 hours? 24 hours?

   Is that why the Secretary didn't follow the law and make individual 
        justifications for each of the 22 sales, as required by law? He 
        just didn't have the time to find out what the law was and 
        whether he was complying with it?

    Answer. I cannot speak to deliberative, pre-decisional 
communications that may be subject to Executive Branch confidentiality 
interests. The Secretary utilized an authority provided by the Arms 
Export Control Act, complying with all of its requirements.

    Question. Did the office of the Legal Advisor produce a written 
legal analysis, determination, and/or recommendation that the Secretary 
actually had the authority to invoke an emergency for these sales?

    Answer. The Office of the Legal Adviser (L) provided legal advice 
at various stages regarding the proposed exercise of the emergency 
authority under section 36 of the Arms Export Control Act, including 
reviewing and clearing the action memorandum to the Secretary to 
approve the emergency determination and related memorandum of 
justification. L reviews and clears all action memoranda to approve 
determinations under section 36 regarding arms sales in order to ensure 
the Department is acting within its legal authorities with respect to 
such determinations.

    Question. If so, what was the date of that legal analysis, 
determination and/or recommendation?

    Answer. The Office of the Legal Adviser provided advice at various 
stages throughout the clearance process. The decision package on the 
emergency determination was finalized and submitted to the Office of 
the Secretary on May 22 or 23, 2019. On May 23rd the Secretary approved 
the determination and the memorandum of justification.

    Question. Will State Department provide a copy of that written or 
any related legal analysis, determination and/or recommendation to the 
Committee?

    If not, what legal privilege is State claiming to exercise that 
prevents it, or enables it, from providing such written legal analysis, 
determination and/or recommendation to the Committee?

    Answer. The Department is not in a position to provide a copy of 
any such advice related to the preparation of a report to Congress 
given the significant executive branch interests implicated in such a 
request, including interests related to the protection of internal 
Executive Branch deliberations and/or attorney-client communications.

    Question. Mr. Cooper, can you explain why the Secretary invoked an 
emergency on Friday, May 24--the Friday before a weeklong Memorial Day 
recess? Why not 1 day prior? Why not 3 days prior, when the Secretary 
had briefed the Senate on the Iran threat?

    Answer. The Secretary of State utilized an emergency authority in 
the Arms Export Control Act specifically to respond to the urgent 
threat posed by Iran; the timing of his decision reflected, among many 
factors, the escalation of those threats.

    Question. Your written testimony also claims that the emergency 
certification was also intended to preserve, quote, ``strategic 
advantage against near-peer competitors:''

   Is this the new standard for the State Department for congressional 
        oversight, that it cannot be tolerated if it in any way 
        undermines this ``strategic advantage''?

   Does the Secretary now want to sell anything to any dictator for a 
        strategic business advantage?

    Answer. The Secretary of State utilized an emergency authority in 
the Arms Export Control Act specifically to respond to the urgent 
threat posed by Iran. This action is intended to support our partners' 
ability to contribute to deterring and--if necessary--defeating that 
threat. Our partners need to retain a high degree of readiness and know 
that the United States stands with them to ensure that have what they 
need for their own security in the region.
    While this emergency certification was in response to the increased 
threat from Iran, it is also relevant that our adversaries, including 
Russia and China, have adopted deliberate long-term strategies of 
trying to disrupt our partnerships by seeking to replace the United 
States as the credible partner of choice.

    Question. Mr. Cooper, in pushing through these sales and 
circumventing Congress, doesn't it send a dangerous message to 
authoritarian regimes and autocrats everywhere: that legislative 
oversight doesn't matter to Secretary Pompeo, the State Department, and 
the Trump administration, as when it is inconvenient, he'll just ignore 
it and declare an ``emergency''?

    Answer. These emergency certifications were made pursuant to and 
consistent with the longstanding statutory authority, which has been 
used by past administrations, both Republican and Democrat.

    Question. Section 36(c)(2) of the Arms Export Control Act (arguably 
does not give the President or the Secretary the authority to declare 
an emergency for commercial sales for countries that are not members of 
NATO and are not Israel, Australia, South Korea, Japan or New Zealand. 
What is State's legal basis for why the Secretary can use authority not 
explicitly present in the statute?

    Answer. The Secretary's certification met the requirements under 
section 36(c)(2) of the Arms Export Control Act for the sales at issue 
here. The opening clause of section 36(c)(2) makes clear that the 
regular notification procedures apply to licenses under any of the 
ensuing subparagraphs only if there is not an emergency certification.

    Question. Would U.S. companies issued export licenses that are not 
legal under U.S. law be legally liable for violating U.S. export laws?

    Answer. U.S. companies are entitled to rely on the terms of export 
licenses issued to them.

    Question. Secretary Cooper, the law is very clear that the 
President has to provide individual justifications for each arms sale 
that is the subject of an invocation of an emergency determination. 
Yet, the Secretary only provided one, overarching boilerplate 
justification of the history of Iran's malign activities, for all 22 
separate sales, as disparate as they are:

    Does this in State's opinion comply with the AECA requirement to 
submit individual justifications for each sale? Why?

    Answer. The Secretary's emergency certification was consistent with 
the relevant provisions of the AECA. The justification transmitted to 
Congress as part of the certification applied to each of the 22 cases.

    Question. Mr. Cooper, is the Department investigating allegations 
that the UAE transferred MRAP vehicles to others in Yemen without U.S. 
permission?

   Approximately when did this investigation begin? Before the 
        Secretary's May 24th declaration of an emergency?

   Why did the Secretary think it was a good idea to bypass the 30-day 
        Congressional review period and expedite the process of getting 
        these arms to UAE, some of which they could also retransfer 
        without permission? Does he not care if U.S. arms are illicitly 
        transferred or misused? Or he cares, just not enough to slow 
        down the process as required by statute for Congressional 
        review?

    Answer. We are working with our partners to address these 
allegations, and we will continue to do so until we are confident all 
steps necessary are taken to safeguard U.S.-origin equipment. We intend 
to provide a full accounting of our review to your committee once our 
investigation is complete.
    The bilateral relationship, including the provision of security 
assistance, with the UAE has existed for many decades. Based upon our 
decades of robust interaction with them, and our continued engagement 
regarding the MRAPs, the Department is confident that they remain a 
reliable partner and there is not a significant risk of diversion or 
misuses of these defense articles.

    Question. Provide a detailed individual justification as to how the 
marketing, sale, and on-going support of ScanEagle and Integrator 
Unmanned Aerial Systems and support for future Intelligence, 
Surveillance, and Reconnaissance (ISR) requirements for the UAE Armed 
Forces will enable the UAE to counter a specific physical military 
threat or actual military attack from Iran, and include a description 
of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. The sales also promote the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
the introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of RQ-21A Blackjack UAVs for intelligence, surveillance and 
reconnaissance to the UAE will enable the UAE to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of Aircraft Follow On Logistics and Support Services for the Saudi 
Air Force, including repair and spare parts, will enable Saudi Arabia 
to counter a specific physical military threat or actual military 
attack from Iran, and include a description of the specific physical 
military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of USMC Training for UAE Presidential Guard in unit operations 
such as operating the Javelin Anti-Tank Weapon System; plan, conduct 
and supervise individuals in Rappelling and Fast Roping from a static 
structure; Special Operations Basic Course and in operation of Special 
Forces Weapon Systems used within the Presidential Guard, will enable 
the UAE to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
continuance of spare and repair parts and contractor support for the 
Tactical Air Surveillance Support System in Saudi Arabia will enable 
Saudi Arabia to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of Aircraft Follow Logistics On and Support Services for the Saudi 
Air Force, including repair and spare parts, will enable Saudi Arabia 
to counter a specific physical military threat or actual military 
attack from Iran, and include a description of the specific physical 
military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale Advanced Precision Kill Weapons System rockets to the UAE will 
enable the UAE to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of Javelin anti-armor Guided Missiles to the UAE will enable the 
UAE to counter a specific physical military threat or actual military 
attack from Iran, and include a description of the specific physical 
military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale Additional equipment for AH-64E Apaches, including one new 
helicopter, to the UAE will enable the UAE to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how:

    (A) The authorization of coproduction and manufacture in Saudi 
Arabia of Paveway Pre-Amp Circuit Card Assemblies (CCA), Guidance 
Electronics Assembly (GEA) CCAs, and Control Actuator System (CAS) CCAs 
for all Paveway variants;

    (B) The authorization of coproduction and manufacture in Saudi 
Arabia of Paveway II Guidance Electronics Detector Assemblies (GEDA) 
and Computer Control Groups (CCG).

    (C) The transfer of up to 64,603 additional kits, partial kits, and 
full-up-rounds will enable Saudi Arabia to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of Integration, installation, operation, training, testing, 
maintenance, and repair of the Maverick AGM-65 Weapons System and the 
Paveway II, Paveway III, Enhanced Paveway II, and Enhanced Paveway III 
Weapons Systems to the UAE will enable the UAE to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of installation, integration, modification, maintenance, and 
repair services for F110-GE-132 gas turbine engines for use in F-16 
Aircraft for use by the UAE in the amount of $50,000,000 or more will 
enable the UAE to counter a specific physical military threat or actual 
military attack from Iran, and include a description of the specific 
physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of Manufacture, production, test, inspection, modification, 
enhancement, rework, and repair of F/A-18E/F and derivative series 
aircraft panels to Saudi Arabia will enable Saudi Arabia to counter a 
specific physical military threat or actual military attack from Iran, 
and include a description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
sale of assistance to Saudi Arabia's Ministry of Defense Transformation 
Project will enable Saudi Arabia to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
authorization for a technical assistance agreement with the UAE to 
support the preparation, shipment, delivery, and acceptance of the 
Guidance Enhanced Missiles (GEM-T) (Patriot) will enable the UAE to 
counter a specific physical military threat or actual military attack 
from Iran, and include a description of the specific physical military 
threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
transfer of technical data and defense services in order to provide 
technically qualified personnel to advise and assist the Royal Saudi 
Air Force (RSAF) in maintenance and training for the RSAF F-15 fleet of 
aircraft will enable Saudi Arabia to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
authorization to retransfer of 500 Paveway II laser guided bombs to 
Jordan will enable Jordan to counter a specific physical military 
threat or actual military attack from Iran, and include a description 
of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
export of 15,000 120mm M933Al 120mm mortar bombs to the Saudi Arabian 
Royal Land Forces will enable Saudi Arabia to counter a specific 
physical military threat or actual military attack from Iran, and 
include a description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
export of 100 M107Al, .50 caliber semi-automatic rifles and 100 sound 
suppressors to the UAE for end use by the General Headquarters, UAE 
Armed forces will enable the UAE to counter a specific physical 
military threat or actual military attack from Iran, and include a 
description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
export of defense articles, including data and defense services, to 
support the performance of maintenance and repair services of F-110 
engines for the Kingdom of Saudi Arabia Ministry of Defense will enable 
the Saudi Arabia to counter a specific physical military threat or 
actual military attack from Iran, and include a description of the 
specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.

    Question. Provide a detailed individual justification as to how the 
transfer of defense articles, defense services, and technical data to 
support the integration of the FMU-152A/B Joint Programmable Bomb Fuze 
system into the UAE Armed Forces General Headquarters' fleet of 
aircraft and associated weapons will enable the UAE to counter a 
specific physical military threat or actual military attack from Iran, 
and include a description of the specific physical military threat.

    Answer. The justification transmitted to Congress as part of the 
certification applied to each of the 22 cases. These sales and the 
associated emergency certification are intended to address the military 
need of our partners in the face of an urgent regional threat posed by 
Iran. This sale also promotes the vitality of our bilateral 
relationships by reassuring our partners and preserving strategic 
advantage against near-peer competitors. None of these sales involves 
introduction of fundamentally new capabilities to the region; none 
fundamentally alters the military balance of power; none is of a nature 
or category that Congress has not previously reviewed and supported for 
these partners.
    Each of these cases furthers our interests in addressing a present 
emergency; remaining engaged with partners; ensuring the United States, 
rather than near-peer adversaries, is their primary security partner; 
supporting our partners in the defense of their homelands and the 
security of the region; and deterring our shared adversaries from 
disrupting those objectives.
                               __________

              Responses of R. Clarke Cooper to Questions 
                    Submitted by Senator Todd Young

    Question. Can you describe what threat was present against which 
the U.S. forces deployed to region would have been incapable of 
defending or deterring and thus require this sale?

    Answer. The Secretary made the Emergency Certification based on a 
number of factors, including the significant increase in the 
intelligence threat streams related to Iran and the clear, provocative, 
and damaging actions taken by Iran's government; and the rapidly 
evolving security situation in the region that required accelerated and 
overt delivery of certain military capabilities to our partners.

    Question. Do you believe the administration currently possesses the 
authority to engage in military action against Iran or is a new 
authorization for the use of military force required in order to act?

    Answer. As Secretary Pompeo has noted, the administration's goal is 
to find a diplomatic solution to deter Iran's activities, not to engage 
in a conflict with Iran. I do not wish to comment on hypotheticals, but 
the administration is not currently seeking a new authorization for use 
of military force. Moreover, the administration has not, to date, 
interpreted either the 2001 or the 2002 AUMF as authorizing military 
force against Iran, except as may be necessary to defend U.S. or 
partner forces engaged in counterterrorism operations or operations to 
establish a stable, democratic Iraq.

    Question. What legitimate military capability would these sales 
have filled that would have increased the effectiveness of the Saudi 
and Emirati military forces?

    Answer. Our partners have requirements for continuing supply and 
support for their defense programs to counter current and potential 
threats, including from Iran. Specifics on partner readiness and 
capabilities is sensitive and often classified information; we welcome 
the opportunity to brief the committee, you and/or your staff on these 
issues.

    Question. If this truly was an emergency, the facts and information 
that necessitated that emergency are of great interest and concern to 
this committee. Are you able to describe those to us?

    Answer. Iran is a malign actor and the leading state sponsor of 
terrorism. Iran continues to pose conventional and asymmetric threats 
to our partners in the Gulf, and to U.S. interests in the region and 
beyond. While these facts are well-known, we have seen new, troubling 
and escalatory indications and warnings from the Iranian regime 
prompting an increased U.S. force posture in the region. Indeed, events 
since the Secretary's certification further demonstrate the urgent need 
for these sales: Iranian attacks on civilian-crewed cargo ships and 
tankers in the Sea of Oman; continued Houthi attacks, including one 
utilizing a cruise missile, against civilian airports; the shoot-down 
of a U.S. Broad Area Maritime Surveillance unmanned aerial system in 
international airspace.
    These latest actions, like those that preceded the May 24 
notification, including attacks on commercial shipping off the coast of 
the United Arab Emirates, attacks on pumping stations of the Saudi 
East-West Pipeline utilizing unmanned aerial vehicles, and a rocket 
fired into a park about a kilometer from the U.S. Embassy in Baghdad on 
May 19 are provocative actions that mark a new evolution in the threat 
Iran poses to the security of the hundreds of thousands of Americans 
who live and work in the Gulf States, and to the security of the 
region, and our partners.
    My testimony July 10 described these events. I would be happy to go 
into further detail in a classified setting for the committee, you, 
and/or your staff.

    Question. Did the administration feel the need to use these 
emergency powers because of a clear threat, or was it more out of 
frustration with the politics and bureaucracy that was slowing these 
sales?

    Answer.The Secretary of State utilized an emergency authority in 
the Arms Export Control Act specifically to respond to the urgent 
threat posed by Iran. This action is intended to support our partners' 
ability to contribute to deterring and--if necessary--defeating that 
threat. To do so our partners need to retain a high degree of readiness 
and know that the United States stands with them to ensure that have 
what they need to ensure their own security and security in the region.

    Question. Do you believe the politics of the Senate have created a 
situation in which the State Department's fulfillment of its 
responsibilities are being hampered?

    Answer. In regards to arms transfers, I can affirm the Department 
has the necessary authorities to fulfill its responsibilities. In the 
case of this Emergency Certification, the law provided an appropriate 
tool for the Secretary to apply against the increase in Iran-related 
threat streams. Congress plays an important role in the review of 
pending arms transfers, and the Department returned immediately to the 
regular Tiered Review process for further sales to these and other 
security partners.

    Question. Mr. Secretary, what review occurred to ensure that these 
military sales would not be used in operations that result in 
humanitarian violations, especially in Yemen, home of perhaps the most 
intense humanitarian rights crisis in the world?

    Answer. These cases received a full policy review, as would any 
other sales, including with regard to human rights and civilian 
casualties. Saudi Arabia and the UAE face legitimate security threats 
emanating from Yemen, and the Executive interagency continues to assist 
those partners in defending themselves. At the same time, the Executive 
interagency is also continuing to work with the Saudi-led Coalition to 
mitigate the risk of civilian casualties. The Coalition continues to 
implement organizational and process changes to mitigate the risk of 
civilian harm, and to enhance respect for rules of engagement and the 
law of armed conflict. We will continue to work closely with our 
partners in enhancing these efforts. The Department also continues to 
press partners to conduct transparent and credible investigations of 
civilian casualty incidents, hold accountable those responsible, and 
take steps to mitigate the risk of such incidents occurring again.

    Question. Are you able to provide me an assurance that the State 
Department took humanitarian concerns into account when evaluating 
these sales?

    Answer. The President's Conventional Arms Transfer Policy, issued 
in 2018, mandates consideration of ``the risk that the transfer may be 
used to undermine international peace and security or contribute to 
abuses of human rights, including acts of gender-based violence and 
acts of violence against children, violations of international 
humanitarian law, terrorism, mass atrocities, or transnational 
organized crime.'' The Department requires consideration of 
humanitarian factors in its assessment of all arms transfers, including 
those submitted under the emergency certifications, which each received 
a full policy review.
                               __________

              Responses of R. Clarke Cooper to Questions 
                 Submitted by Senator Edward J. Markey

                      civilian casualties in yemen
    Question. According to the Armed Conflict Location & Event Data 
Project, the total number of reported fatalities in the Yemen conflict 
from the beginning of 2015 to present is 91,600. Around 12,000 have 
been reported so far in 2019.

    The Saudi-led coalition and its allies remain responsible for the 
highest number of reported civilian fatalities from direct targeting. 
About two thirds of reported civilian fatalities in Yemen over the last 
four and a half years have been caused by Saudi-led coalition 
airstrikes.

    In your written testimony, you stated, quote, ``Remaining a 
reliable security partner to our allies and friends around the world is 
also in the interest and furtherance of our values:''

    Do you believe the number of reported casualties reflects well on 
American values?

    Answer. We share your concerns about the end use of the arms we 
provide overseas, including in the context of the Yemeni civil war. 
From the beginning of this conflict we have maintained that a political 
solution is urgently needed, and have supported the U.N.-led effort 
working toward that objective. In addition, we have engaged with the 
Saudi-led Coalition over the course of its operations to help it reduce 
the occurrence of civilian casualties. Every civilian casualty is a 
tragedy, and we have both a moral and strategic imperative to do as 
much as possible to prevent them and to help our partners and allies 
prevent them.

    Question. Are you satisfied with the administration's efforts to 
minimize civilian casualties, which you said was a cornerstone of the 
Trump administration's Conventional Arms Transfer Policy in 2018?

    Answer. I hope that no military is ever complacent that it has done 
enough to minimize civilian casualties, nor am I complacent that we 
have done enough to help our partners do so. That is why we continue to 
look for opportunities to help our partners do better. When President 
Trump issued the updated Conventional Arms Transfer Policy in 2018, a 
centerpiece of the new Policy was its unprecedented directive that we 
work with partners to reduce the risk of civilian harm in their 
military operations. We are working on the implementation of that 
directive to shape future engagements, including with partners in 
advance of conflict situations.

    Question. Given that the 2018 U.S. Conventional Arms Transfer 
Policy requires the executive branch to account for human rights and 
international humanitarian law, which attacks reported in an open forum 
have concerned you the most with respect to the ability of the Saudi-
led coalition to avoid civilian harm?

    Answer. All incidents that incur civilian casualties are 
concerning. In particular, the August 9, 2018 strike in Saada 
governorate that hit a school bus was deeply concerning and drew 
significant attention. We regularly engage the Coalition [at the 
highest levels?] to encourage appropriate procedures to assess and 
minimize the risk of civilian harm, as well as accountability and 
transparency in investigations of strikes that lead to civilian 
casualties. The Coalition has indicated to us that it wants to improve 
further and remains open to our input on best practices. I remain 
committed to policies that reduce civilian harm wherever possible.

                                  <all>
</pre></body></html>
